<html>
<title> - THE CHEMICALS IN COMMERCE ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                     THE CHEMICALS IN COMMERCE ACT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-141

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

90-983 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     6

                               Witnesses

James Jones, Assistant Administrator, Office of Chemical Safety 
  and Pollution Prevention, Environmental Protection Agency......     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................   174
Calvin Dooley, President and Chief Executive Officer, American 
  Chemistry Council..............................................    48
    Prepared statement...........................................    50
Beth Bosley, President, Boron Specialties, LLC, On Behalf of the 
  Society of Chemical Manufacturers and Affiliates...............    64
    Prepared statement...........................................    66
Mark Greenwood, Principal, Greenwood Environmental Counsel, PLLC.    70
    Prepared statement...........................................    72
Len Sauers, Vice President, Global Sustainability, Product Safety 
  and Regulatory Affairs, the Proctor & Gamble Company...........    94
    Prepared statement...........................................    96
Steven J. Goldberg, Vice President and Associate General Counsel, 
  Regulatory and Government Affairs, BASF Corporation............   103
    Prepared statement...........................................   105
Michael Moore, a State Senator from the Commonwealth of 
  Massachusetts, On Behalf of the National Conference of State 
  Legislatures...................................................   111
    Prepared statement...........................................   114
Andy Igrejas, Director, Safer Chemicals, Healthy Families........   153
    Prepared statement...........................................   155

                           Submitted Material

Discussion Draft of H.R. ------, the Chemicals in Commerce Act, 
  submitted by Mr. Shimkus \1\
Discussion Draft of H.R. ------, the Chemicals in Commerce Act, 
  with amendments, submitted by Mr. Shimkus \2\

----------
\1\ The draft bill is available at http://cradmin.clerk.house.gov/
repository/IF/IF18/20140429/102160/BILLS-113pih-
TheChemicalsinCommerceAct.pdf.
\2\ The draft bill with amendments is available at http://
cradmin.clerk.house.gov/repository/IF/IF18/20140429/102160/BILLS-
113pih-DraftsComparisonofTheChemicalsinCommerceAct.pdf.
Letter of April 28, 2014, from Kevin H. Rhodes, President and 
  Chief Intellectual Property Counsel, 3M Innovative Properties 
  Company, to Mr. Shimkus and Mr. Tonko, submitted by Mr. Shimkus 
  \3\
Letter of April 17, 2014, from Eric T. Schneiderman, New York 
  State Attorney General, et al., to Mr. Shimkus and Mr. Tonko, 
  submitted by Mr. Shimkus \3\
Letter of April 29, 2014, from Linda Lipsen, Chief Executive 
  Officer, American Association of Justice, to Mr. Shimkus and 
  Mr. Tonko, submitted by Mr. Shimkus \3\
Letter of April 3, 2014, from Dominique Browning, Co-Founder and 
  Senior Director, Moms Clean Air Force, to Mr. Shimkus, et al., 
  submitted by Mr. Shimkus \3\
Letter of April 16, 2014, from Elena Rios, President and CEO, 
  National Hispanic Medical Association, to Mr. Shimkus and Mr. 
  Tonko, submitted by Mr. Shimkus \3\
Letter of April 1, 2014, from Michael A. Lenoir, President, 
  National Medical Association, to Mr. Shimkus, et al., submitted 
  by Mr. Shimkus \3\
Letter of March 28, 2014, from Georges Benjamin, Executive 
  Director, American Public Health Association, to Mr. Shimkus 
  and Mr. Tonko, submitted by Mr. Shimkus \3\
Letter of April 28, 2014, from Advocate Health Care, et al., to 
  Mr. Shimkus and Mr. Tonko, submitted by Mr. Shimkus \3\
Letter of April 28, 2014, from Pamela Miller, Executive Director, 
  Alaska Community Action on Toxics, et al., to Mr. Shimkus, 
  submitted by Mr. Shimkus \3\
Letter of April 28, 2014, from Mr. Waxman and Mr. Tonko to Mr. 
  Shimkus, submitted by Mr. Shimkus \3\
Statement of April 27, 2014, by NORA, An Association of 
  Responsible Recyclers, submitted by Mr. Shimkus \3\

----------
\3\ The letters and the NORA statement are available at http://
  docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=102160.

 
                     THE CHEMICALS IN COMMERCE ACT

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                  House of Representatives,
           Subcommittee on Environment and Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Gingrey, Pitts, 
Latta, Harper, Cassidy, McKinley, Bilirakis, Johnson, Barton, 
Upton (ex officio), Tonko, Pallone, Green, DeGette, Capps, 
McNerney, Dingell, Barrow, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Deputy Communications Director; Jerry Couri, Senior 
Environmental Policy Advisor; David McCarthy, Chief Counsel, 
Environment and the Economy; Tina Richards, Counsel, 
Environment; Chris Sarley, Policy Coordinator, Environment and 
the Economy; Tom Wilbur, Digital Media Advisor; Phil Barnett, 
Democratic Staff Director; Alison Cassady, Democratic Senior 
Professional Staff Member; Greg Dotson, Democratic Staff 
Director, Energy and the Environment; Caitlin Haberman; 
Democratic Policy Analyst; Ryan Schmit, Democratic EPA 
Detailee; and Alexandra Teitz, Democratic Senior Counsel, 
Energy and the Environment.
    Mr. Shimkus. I would like to call the hearing to order and 
recognize myself for 5 minutes for my opening statement.
    Since our March 12 hearing on the original discussion draft 
of the Chemicals in Commerce Act, we have been working on a 
bipartisan basis to find common--oh, my apologies. My 
apologies. My ranking member is not here. I was just busy. If 
Jerry would shut off my time? Again, my apologies to my 
colleagues. I was anxious to get started. So I will now open--
start again my opening statement for this hearing.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Since our March 12 hearing on the original discussion draft 
of the Chemicals in Commerce Act, we have been working on a 
bipartisan basis to find common ground. The revised discussion 
draft before you today contains several significant changes 
from the earlier version. I won't itemize them now, but I will 
mention a few highlights.
    In Section 4, we have added new authority for EPA to 
require the development of new hazard and exposure information 
for priority designation purposes. In Section 5, instead of 
requiring EPA to grant exemptions for byproducts from Section 5 
notice requirements, the new draft gives the EPA discretion to 
decide whether to grant such an exemption. Section 6 includes 
several important changes. The draft now requires EPA to 
evaluate the risk of harm that a chemical substance poses to 
human health or the environment based upon four specific 
factors. One is the nature and magnitude of risk. Two is 
important--the impact on potentially exposed subpopulations. 
Three is whether harms has occurred. And, four, the probability 
that harm will occur from use of a chemical substance.
    The new draft also makes it explicit that in making such 
risk evaluations, EPA is not to consider economic costs or 
benefits. Section 6 also now includes a new alternative risk 
evaluation option for EPA to determine, at any time, that a 
chemical not designated as a high priority will not present a 
risk of harm in the absence of Section 6 restrictions on it. 
The section also now adds deadlines for EPA to make action on 
existing individual chemicals. EPA must complete a risk 
evaluation within 4 years after designating a chemical as high 
priority, and must promulgate any restrictive rule on an 
existing chemical within 3 years after finishing the risk 
evaluation. The revised draft would allow for extensions to 
factor in additional information, but the total of all 
extensions could not exceed 3 years.
    With respect to preemption, we changed the effect of an EPA 
designation of a chemical substance as low priority. In the 
previous draft, a low-priority designation would have preempted 
any State regulation of a chemical substance. The revised draft 
limits the preemptive effect of a low-priority designation to 
State regulations established after the low priority 
designation, leaving in place State regulations in effect when 
the low-priority designation is made.
    We also want to ensure we are using a strong scientific 
process, which is why the revised draft streamlines the science 
and information quality provisions of the bill. Specifically, 
details about science, including a definition of ``best 
available science'' and some details on information, quality 
requirements are replaced by codification of five science 
assessment factors currently used administratively by the EPA. 
The revised draft also clarifies which decisions under TSCA 
must be made based on the weight of such scientific evidence. 
Today, we will get the reaction of the administration, and we 
welcome back our friend, Jim Jones, Assistant Administrator of 
the EPA, just for that purpose. We will also hear from a 
variety of stakeholders, many of whom will have to live with 
the Chemicals in Commerce Act once it becomes law.
    I appreciate all of our committee colleagues who have put 
so much time and effort into this legislative effort. TSCA 
reform is neither easy nor simple, and there is still no 
guarantee that we will succeed in forging a consensus bill this 
year. All I can promise is my best effort, working directly 
with my colleagues on both sides of the aisle to get there.
    And with that, I would--I have a couple--a minute left. No 
one seeking recognition on my side? I yield back my time and 
recognize Ranking Member Mr. Tonko from New York.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Since our March 12 hearing on the original discussion draft 
of the Chemicals in Commerce Act we've been working on a 
bipartisan basis to find common ground. The revised discussion 
draft before you today contains several significant changes 
from the earlier version. I won't itemize them now, but I will 
mention a few highlights.
    In Section 4 we added new authority for EPA to require the 
development of new hazard and exposure information for priority 
designation purposes.
    In Section 5, instead of requiring EPA to grant exemptions 
for byproducts from section 5 notice requirements, the new 
draft gives EPA discretion to decide whether to grant such an 
exemption.
    Section 6 includes several important changes. The draft now 
requires EPA to evaluate the risk of harm a chemical substance 
poses to human health or the environment based upon four 
specific factors:
    <bullet> Nature and magnitude of the risk;
    <bullet> Impact on potentially exposed subpopulations;
    <bullet> Whether harm has occurred; and
    <bullet> Probability that harm will occur from use of a 
chemical substance.
    The new draft also makes it explicit that in making such 
risk evaluations EPA is not to consider economic costs or 
benefits.
    Section 6 also now includes a new Alternative Risk 
Evaluation option for EPA to determine, at any time, that a 
chemical not designated as a high priority will not present a 
risk of harm in the absence of section 6 restrictions on it.
    The Section also now adds deadlines for EPA to take action 
on existing individual chemicals. EPA must complete a risk 
evaluation within 4 years after designating a chemical as high 
priority, and must promulgate any restrictive rule on an 
existing chemical within 3 years after finishing the risk 
evaluation. The revised draft would allow for extensions to 
factor in additional information but the total of all 
extensions could not exceed 3 years.
    With respect to preemption, we changed the effect of an EPA 
designation of a chemical substance as low priority. In the 
previous draft a low-priority designation would have pre-empted 
any State regulation of a chemical substance. The revised draft 
limits the preemptive effect of a low-priority designation to 
State regulations established after the low-priority 
designation, leaving in State regulations in effect when the 
low priority designation is made.
    We also want to ensure we are using a strong scientific 
process, which is why the revised draft streamlines the science 
and information quality provisions of the bill. Specific 
details about science, including a definition of ``best 
available science'' and some details on information quality 
requirements, are replaced by codification of five science 
assessment factors currently used administratively by EPA.
    The revised draft also clarifies which decisions under TSCA 
must be made based on the weight of such scientific evidence.
    Today we'll get the reaction of the administration, and we 
welcome back our friend, Jim Jones, Assistant Administrator of 
EPA, for just that purpose. We'll also hear from a variety of 
stakeholders, many of whom will have to live with the Chemicals 
in Commerce Act once it becomes law.
    I appreciate all of our committee colleagues who have put 
so much time and effort into this legislative effort. TSCA 
reform is neither easy nor simple, and there is still no 
guarantee that we will succeed in forging a consensus bill this 
year. All I can promise is my best effort working directly with 
my colleagues on both sides of the aisle to get there.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, for holding this hearing 
on the discussion draft for TSCA reform that was released last 
week.
    At the last hearing, we heard from witnesses from industry 
and the public health community on the initial proposal for 
revising TSCA. Initial reviews from industry witnesses were 
mixed but mostly favorable. The views of the public health, 
labor and environmental community were very critical. We have 
had a lot of helpful testimony from our earlier hearings. Our 
staffs have been meeting for several months now. And of course, 
we have 40 years of experience with the existing law.
    While this new discussion draft incorporates some new 
language based on the ongoing discussions, it reflects very 
little progress on the core issues and problems with the 
Federal chemicals management program under TSCA. It does not 
incorporate changes to address the major areas of concern that 
Democrats have raised. In short, it is disappointing.
    I am willing to keep working on this. And I know the other 
Democratic members who are engaged in this process are also 
willing to continue. But time is short. We have little time 
left in this Congress, and we are going to have to engage in a 
more productive process if the goal is to produce a bill with 
real potential to become law.
    This discussion draft falls far short of providing the 
Environmental Protection Agency with the authorities they need 
to evaluate the potential risks associated with chemicals 
currently in commerce or those that are entering the market for 
the first time.
    At our last hearing, all the witnesses indicated that the 
safety standard in the bill should be determined on the basis 
of health and environmental information alone. Determining how 
you meet the standard, risk management should incorporate 
information about cost and benefits associated with alternate 
ways to reduce a chemical's risks. This draft does not achieve 
that necessary distinction. What happened to the safety 
determination? The public does not have confidence in this 
program. A revision of TSCA must restore public confidence in 
the safety of chemical products. Public confidence is indeed 
good for business, essential for business.
    The stated purpose of the bill is to provide for the safe 
and efficient flow of chemicals in interstate and foreign 
commerce. But once you read beyond the findings, the word 
safety is not mentioned again until the section of the draft 
dealing with confidential business information. In that 
context, there is more emphasis on protecting intellectual 
property than ensuring that adequate health and safety 
information are available to risks or respond to an emergency.
    Mr. Chair, I hoped for more progress by this points. And I 
am sure we all did. But this proposal does more to maintain the 
status quo than it does to move us forward. In some respects, 
it weakens current law. The draft does not reflect compromise 
or balance the desires of all stakeholders. A balanced approach 
is needed to garner broad-based support. Of course, as the 
majority, you can find the votes to move a bill forward. But a 
partisan bill that does not incorporate even the most modest 
recommendations of the public health and environmental 
communities will not become law. A bill that does not provide 
EPA with the authorities needed to ensure that chemicals in 
commerce are safe, authorities that independent analyses by the 
Government Accountability Office has recommended, will not 
become law. A bill that broadly preempts State's authorities to 
protect their citizens will not become law. There is still time 
to produce a good bill.
    As I said earlier, I am willing to continue working on this 
with you. I believe the reform of TSCA is a worthy effort that 
we can craft legislation that would be supported by a majority 
of our committee's membership. I know the Democratic members 
want to keep working toward a compromised bill that we can 
support, that will be supported by this administration and the 
public interest community and industry, and that has a chance 
to become law. Let us get back to work on this.
    We have been very fortunate in having excellent witnesses 
on this topic. I look forward to today's testimony, and I hope 
that today's witnesses will provide us with additional 
suggestions on how to achieve a bill that will serve the public 
and serve this--the industry. Thank you all for participating 
in the important hearing. Again, Mr. Chair, thank you for 
hosting this hearing.
    Mr. Shimkus. I thank my colleague. I now turn to Chairman 
of the Full Committee Mr. Upton for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    You know, our work to reform TSCA indeed has come a long, 
long way. Member interest, direct involvement on a bipartisan 
basis has been encouraging and helpful. And I understand that 
we are not quite there yet. But today, we are going to get some 
constructive input from the administration, which is vital on 
any issue as important and as complex as TSCA reform.
    While we made changes from our earlier draft to the 
legislation, our overarching objectives remain the same. We 
want to reinforce public confidence in the safety of chemical 
substances contained in a wide variety of products that we 
encounter every single day. And we want to ensure the free flow 
of commerce among States and with our trading partners.
    The key focus of the legislation is on so called existing 
chemicals. These include the thousands of chemicals that have 
been on the market for decades, which have not gone through the 
TSCA new chemical review process. Some of these are 
particularly high priority, especially given human exposure to 
them. The draft legislation before us today is aimed at 
initiating a systematic process to review these chemicals and 
determine which uses of them are safe, and whether or not we 
need any requirements or restrictions.
    The workload requires both a high level of expertise and 
effective program management at the EPA. That is why we are 
especially glad to have Assistant Administrator Jim Jones today 
with us. We appreciate this technical assistance that you have 
provided thus far, and want to continue working closely with 
your agency as we complete work on this legislation.
    We also welcome our stakeholder panel. We need to hear from 
them how some of our ideas for structuring a legislation will 
play out in the real world. Does it reinforce public confidence 
in chemical safety? Does it encourage innovation and economic 
growth? We welcome constructive suggestions.
    I particularly want to thank Mr. Shimkus for his leadership 
on this issue and efforts to find bipartisan common ground. The 
law has not been updated in nearly 40 years. It has been a very 
challenging task. But this draft bill gets us closer towards 
our objective of a commonsense law that indeed does protect the 
public health and further encourages our manufacturing 
renaissance.
    Yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Our work to reform TSCA has come a long way. Member 
interest and direct involvement, on a bipartisan basis, has 
been encouraging and helpful. Today we will get some 
constructive input from the administration, which is vital on 
any issue as important and complex as TSCA reform.
    While we have made changes from our earlier drafts of the 
legislation, our overarching objectives remain the same: we 
want to reinforce public confidence in the safety of chemical 
substances contained in a wide variety of products we encounter 
every day, and we want to ensure the free flow of commerce 
among States and with our trading partners.
    A key focus of the legislation is on so-called ``existing 
chemicals.'' These include the thousands of chemicals that have 
been on the market for decades, which have not gone through the 
TSCA newchemical review process. Some of these chemicals are 
particularly high priority, especially given human exposure to 
them. The draft legislation before us today is aimed at 
initiating a systematic process to review those chemicals and 
determine which uses of them are safe and whether we need any 
requirements or restrictions.
    That workload requires both a high level of expertise and 
effective program management at the Environmental Protection 
Agency. That's why we are especially glad to have Assistant 
Administrator Jim Jones with us today. We appreciate the 
technical assistance EPA has provided thus far, and we want to 
continue working closely with the Agency as we complete work on 
this legislation.
    We also welcome our stakeholder panel. We need to hear from 
them how some of our ideas forstructuring the legislation will 
play out in the real world. Does it reinforce public confidence 
in chemical safety? Does it encourage innovation and economic 
growth? We welcome constructive suggestions.
    I thank Mr. Shimkus for his leadership on this issue and 
efforts to find bipartisan common ground. This law has not been 
updated in nearly 40 years. It has been a challenging task, but 
this draft bill gets us even closer toward our objective of a 
commonsense law that protects the public health and further 
encourages our manufacturing renaissance.

    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    When the subcommittee convened in March to examine the 
chairman's proposal to reform the Toxic Substances Control Act, 
I said I wanted to work with the majority to see if we could 
reach a bipartisan agreement. My Democratic colleagues and I 
have been willing to be creative and bridge differences to make 
progress on this issue. We know that the Nation's chemical 
safety net is broken and inadequate.
    Unfortunately, if the goal is a broadly supported 
bipartisan bill, this process is currently failing. To reach 
agreement, we need to acknowledge that industry cannot get its 
wish list. No one can. Environmental groups, public health 
organizations, labor unions and many others all have important 
interests at stake. And if we want a law, we will have to work 
together to address those concerns.
    Over the last few months, our staffs have met periodically 
to discuss TSCA reform. But these discussions have never turned 
into negotiations. The majority has wanted to write the bill 
unilaterally. And there has never been an attempt to work out 
bill language together. It is the chairman's prerogative to 
handle the subcommittee's business in this way, but I think it 
is a mistake.
    Let us look at where the stakeholders are. Since our last 
hearing, six additional industry trade associations have 
announced their support for this process, though not 
necessarily for the draft itself. If the goal is building 
industry support, well, we are making progress. But the public 
health groups remain in strong opposition to the draft. They 
say the draft won't protect public health and the environment, 
and in fact remains weaker than even the status quo of chemical 
regulation. Key unions and environmental groups share their 
concerns. And State governments are raising serious objections 
as well.
    A key premise of TSCA reform, which has been supported by 
almost all the stakeholders, is that the ``cost-benefit'' 
standard for regulating dangerous chemicals under current law 
is unworkable and should be replaced by a risk-based approach. 
But this draft retains the cost-benefit standard, leaving 
American families, and especially children, without adequate 
protection from the adverse effects of toxic chemicals.
    The draft contains sweeping preemption provisions that will 
preempt popular State and local laws throughout the country, 
including recently enacted laws relating to hydraulic 
fracturing. Although it has been requested a number of times, 
the majority still hasn't explained which State and local laws 
they intend to target for preemption. The bill would even 
overturn recent reforms made by EPA to enhance transparency. 
Under these provisions, EPA would be prohibited from revealing 
the identity of chemicals that cause serious health and 
environmental harm. This will harm companies that are marketing 
safer consumer products and make it difficult, if not 
impossible, for consumers to protect themselves from toxic 
exposures.
    I want TSCA legislation to pass. The President's Cancer 
Panel found that reform of the Toxic Substances Control Act is 
critically needed to reduce the incidence and burden of cancer 
in this country. Chemical exposures are ubiquitous in our 
society. According to the Centers for Disease Control, their 
most recent data says that 75 percent of people tested have the 
commonly used chemical triclosan in their bodies. That chemical 
has been shown to interfere with hormone levels in animals. 
Seventy-five percent of people tested have this chemical in 
their body. The CDC also found five different PBDEs in more 
than 60 percent of participants. These chemicals have been 
linked to serious health concerns, including rising autism 
rates. And these chemicals are showing up in the bodies of 
Americans at levels 3 to 10 times higher than found in European 
populations.
    We need a law to protect the public from these exposures. 
But this process isn't working. We need to bridge our 
differences, not accentuate them. I am not ready to give up, 
but I do have a suggestion. I think we should consider scaling 
back the ambition of this effort. Let us focus on where we can 
find agreement. Let us see if we can return to the drawing 
board and come up with a streamlined proposal that can truly be 
bipartisan.
    I know I am echoing the sentiments expressed by the Ranking 
Member of the subcommittee. And, Mr. Chairman, I hope you will 
take them to heart. Yield back my time.
    Mr. Shimkus. The gentleman yields back his time, thanks you 
for your comments. The Chair now recognizes the Honorable Jim 
Jones, Assistant Administrator, Office of Chemical Safety and 
Pollution Prevention of the United States Environmental 
Protection Agency. Your full statement's in the record. You 
have 5 minutes. And welcome.

 STATEMENT OF JAMES JONES, ASSISTANT ADMINISTRATOR, OFFICE OF 
    CHEMICAL SAFETY AND POLLUTION PREVENTION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Jones. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and other members of the subcommittee. Thank you for the 
opportunity to discuss reform of chemicals management in the 
United States.
    It is clear that there is wide agreement on the importance 
of ensuring chemical safety and restoring the public's 
confidence that chemicals used in the products they and their 
families use are safe. This administration also believes it is 
crucial to modernize and strengthen the Toxic Substances 
Control Act to provide the EPA with the tools necessary to 
achieve these goals and ensure global leadership in chemicals 
management.
    We continue to be encouraged by the interest in TSCA reform 
indicated by the introduction of several bills in recent years, 
the hearings on TSCA-related issues such as this one that are 
being held, and the bipartisan discussions that are taking 
place. Key stakeholders share common principles on how best to 
improve our chemicals management programs.
    We at EPA remain committed to working with this committee 
and others in both the House and the Senate, members of the 
public, the environmental community and the chemical industry, 
the States, and other stakeholders to improve and update TSCA.
    Chemicals are found in almost everything we buy and use. 
They can be essential for our health, our wellbeing and our 
prosperity. However, we believe it is equally essential that 
chemicals are safe. While we have a better understanding of the 
environmental impacts, exposure pathways and health effects 
that some chemicals can have than we did when TSCA was passed, 
under the existing law it is challenging to act on that 
knowledge.
    TSCA gives the EPA jurisdiction over chemicals produced and 
used in the United States. However, unlike the laws applicable 
to drugs and pesticides, TSCA does not have a mandatory program 
where the EPA must conduct a review to determine the safety of 
existing chemicals. In addition, TSCA places burdensome legal 
and procedural requirements on the EPA before the Agency can 
request the generation and submission of health and 
environmental effects data on existing chemicals. It is also 
proven challenging to take action to limit or ban chemicals 
that the EPA has determined to pose significant health 
concerns.
    The EPA believes it is critical that any update to TSCA 
includes certain components. In September of 2009, the 
administration announced principles to update and strengthen 
TSCA. These include the need to provide the Agency with tools 
to quickly and efficiently obtain information from 
manufacturers that is relevant to determining the safety of 
chemicals. The EPA should also have clear authority to assess 
chemicals against the risk-based safety standard and to take 
risk management actions when chemicals do not meet the safety 
standard, with flexibility to consider children's health, 
economic costs, social benefits and equity concerns.
    The principles further state that both chemical 
manufacturers and EPA should assess and act on priority 
chemicals, both existing and new, in a timely manner. This 
means that the EPA should have authority to set priorities for 
conducting safety reviews on existing chemicals based on 
relevant risk and exposure considerations. Clear and enforcable 
and practicable deadlines applicable to the Agency and industry 
should be set for completion of chemical reviews, in particular 
those that might impact sensitive subpopulations. Legislation 
should also provide the EPA with tools to ensure the 
protections put in place are carried out and provide a level 
playing field for the companies that comply.
    On April 22, 2014, the revised version of the Chemicals in 
Commerce Act discussion draft was released by Chairman Shimkus. 
While the administration has not yet developed a formal 
position on the discussion draft, there are several important 
observations that I would like to offer. As stated in the 
principles above, we feel strongly that updated legislation 
should include improvements that will provide the EPA with the 
ability to make timely decisions if the chemical poses a risk 
and the ability to take actions appropriate to address that 
risk. The current discussion draft does not include a mechanism 
that would provide for the timely review of the existing 
chemicals that may pose a concern, which we believe is vitally 
important to assuring the American public that chemicals they 
find in the products they buy are safe.
    As stated earlier, the use of Section 6 of TSCA to limit or 
ban a chemical that poses a significant risk has been a major 
challenge. By including a standard very similar to the current 
TSCA Section 6 authorities, the bill fails to address another 
key element of meaningful chemical safety reform. In the 
administration's third principle, which states that when 
addressing chemicals that do not meet the safety standard, risk 
management decisions should take into account cost and 
availability of substitutes, as well as sensitive 
subpopulations and other factors. The draft bill's unreasonable 
risk standard does not align with the approach delineated in 
the principles.
    The new chemicals provision in Section 5 of the current 
discussion draft also does not align with the principles in 
that they do not require that the EPA conclude that new 
chemicals are safe and do not endanger public health and the 
environment, elements of principle two and another keystone of 
credible chemicals management.
    Mr. Chairman, thank you again for your leadership on TSCA 
reform. I would be happy to answer any questions that you or 
members of the subcommittee have.
    [The prepared statement of Mr. Jones follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Shimkus. Thank you very much, Mr. Jones. And, before I 
start, we gave your staff a head's up. And I think they have a 
copy of the draft bill. And I would ask that they give that to 
you, as I will probably refer to some pages in my opening 
questions. And I would like to recognize myself for the first 5 
minutes.
    Your written testimony suggests the discussion draft does 
not have a risk-based standard for review of chemicals that 
does not consider cost or benefits, and suggests that the 
standard in the discussion draft is very similar to current 
Section 6.
    Let us take a look at Section 6(b) in the discussion draft. 
That is page 35, lines 15 to 22. And again, we gave your folks 
a heads up that we would be doing this.
    [The discussion drafts are available at http://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=102160.]
    So, in the old draft, that was a ``safety determination.'' 
The new draft puts focus on risk by calling it more 
appropriately a ``risk evaluation.'' Do you agree that the new 
draft takes the phrase of--and I quote--``unreasonable risk'' 
out of Section 6(b), don't you?
    Mr. Jones. Out of Section 6(b), I believe that that is 
accurate.
    Mr. Shimkus. So that is a yes?
    Mr. Jones. Yes.
    Mr. Shimkus. Instead, Section 6(b) of the discussion draft 
requires the EPA to evaluate a chemical for significant risk of 
harm to human health or the environment, isn't that correct? 
That is page 35, line 15 to 22 also.
    Mr. Jones. That is correct for Section 6(b). Yes.
    Mr. Shimkus. Thank you. And it lays out explicit factors to 
weigh in making the risk evaluation, is that correct?
    Mr. Jones. That is correct.
    Mr. Shimkus. And that on page 37, line 16, and page 38, 
line 10, EPA is directed not to consider costs and benefits at 
this stage, isn't that correct?
    Mr. Jones. That is correct.
    Mr. Shimkus. And that on page 38, line 11 through 23, 
Section 6(b) includes requirements that EPA consider the likely 
impact of the chemical to potentially expose subpopulations, 
isn't that correct?
    Mr. Jones. That is correct.
    Mr. Shimkus. So there are some things that you like about 
this revised draft?
    Mr. Jones. Yes. Absolutely, there are things that I like 
about----
    Mr. Shimkus. Thank you. I think the surprising thing was in 
your opening statement, there was no acknowledgment and some of 
my colleagues on the other side make no acknowledgment of some 
significant movements that have been made in some of these 
areas. Your written statement suggests that the discussion 
draft version of Section 5 is weaker than existing Section 5. 
And we hear that from my friends on the other side. So isn't 
the ``may present determination'' in Section 5(c)(3) of the 
discussion draft--that is page 22--the exact same as what is 
contained in current Section 5(e)?
    Mr. Jones. Well, that may well be the case. I don't have 
existing TSCA in front of me. But if you would like, I could 
talk about why I think that----
    Mr. Shimkus. Well, is ``may present'' in this draft, and is 
``may present'' in current law in Section 5?
    Mr. Jones. It is.
    Mr. Shimkus. OK.
    Mr. Jones. But the subsequent findings that the EPA needs 
to make----
    Mr. Shimkus. Well, that is what we will follow-up on in 
these questions. Isn't the Section 5 rulemaking authority 
substantially similar to what EPA currently has available to it 
under Section 5(e) or 5(f) on page 23?
    Mr. Jones. I think the existing TSCA Section 5(e) standard 
allows the Agency much more flexibility to prevent a chemical 
from getting on the market----
    Mr. Shimkus. So your testimony is that this is where it 
might be weaker, because you do not think that this language 
that we have is substantially similar to current Section 5?
    Mr. Jones. That is correct.
    Mr. Shimkus. OK. And we would then ask for you what kind of 
language would the EPA propose to clean that up?
    Mr. Jones. Yes. Sure.
    Mr. Shimkus. Because with all due respect to my friends on 
the minority side, we have been asking for months for language 
and never received any language from anyone on the minority 
side. So it is tough to negotiate when we propose language and 
we don't receive any in return.
    Let me go to--please state whether you support or oppose 
the following policy choices in the discussion draft, expanding 
EPA's existing TSCA authority to require new testing by 
manufacturers and processors via rule, order or consent 
agreement. Does this draft do that?
    Mr. Jones. Yes, it does.
    Mr. Shimkus. And isn't order the ability to do an order--a 
significant improvement over current law and--
    Mr. Jones. Yes.
    Mr. Shimkus [continuing]. And previous drafts?
    Mr. Jones. Yes, it is.
    Mr. Shimkus. So that is a good thing?
    Mr. Jones. Yes, it is.
    Mr. Shimkus. All right. Thank you. And you are smiling. I 
like that. Providing this testing authority for prioritization 
if existing information is not sufficient, does this draft do 
that?
    Mr. Jones. It does.
    Mr. Shimkus. Another good thing?
    Mr. Jones. That is a good thing. Yes.
    Mr. Shimkus. Providing this testing authority for 
performing a risk evaluation on high-priority chemicals, does 
this draft do that?
    Mr. Jones. Yes, it does that.
    Mr. Shimkus. Providing this testing authority to ensure 
compliance with control measures for new and existing 
chemicals, does this draft do that?
    Mr. Jones. You know, Chairman Shimkus, I can't remember 
specifically whether it does that, as I don't recall that.
    Mr. Shimkus. OK. But you can see my line of----
    Mr. Jones. Yes.
    Mr. Shimkus. The answer is, we believe it does. My time has 
expired. I would like to know--I have two more questions. But I 
do not have time--I will let Mr. Tonko now ask questions for 5 
minutes.
    Mr. Tonko. Assistant Administrator Jones, there are many 
serious issues with this bill, but I would like to focus on the 
expansive preemption provisions. Later today, State Senator 
Michael Moore from the National Conference of State Legislators 
will testify that, and I quote, ``States have enjoyed a long 
history of co-regulation with the Federal Government in 
environmental protection and have made sound policy decisions 
benefiting the American public.'' He goes on to say that the 
discussion draft will, and I quote, ``strip State's residents 
of protections enacted by their elected officials.'' And again 
quote, ``leave everyone more susceptible to increased harm from 
toxic chemicals.'' Mr. Jones, do you agree that the States play 
an important role in protecting human health and the 
environment from exposure to toxic chemicals?
    Mr. Jones. I do agree with that.
    Mr. Tonko. The preemption language in the discussion draft 
is sweeping in scope. We looked at the type of State or local 
laws and regulations that could be affected. The list is 
staggering. So, Mr. Jones, would you agree that the preemption 
language in this discussion draft is very broad?
    Mr. Jones. I would agree it is very broad.
    Mr. Tonko. In fact, this language is drafted so broadly 
that State and local regulations of hydraulic fracturing and 
the chemicals used in hydraulic fracturing could be preempted. 
Section 17 preempts State and local governments from 
establishing or implementing a law or regulation requiring the 
development or submission of information relating to a chemical 
substance. This could have serious consequences for State 
requirements for well operators to disclose the chemicals used 
in hydraulic fracturing fluids. So, Mr. Jones, do you agree 
that the preemption language could jeopardize State laws 
requiring the oil and gas industry to disclose the chemicals 
used in their hydraulic fracturing?
    Mr. Jones. Yes, Congressman Tonko, I believe that 
17(a)(1)(4) right off the bat will preempt some existing 
disclosure requirements. And then other elements of the 
provision would do it prospectively. So I think there will be 
some right off the bat that are preempted for some number of 
chemicals, and then prospectively there will be continuing 
additional chemicals preempted.
    Mr. Tonko. Thank you. And what other--what about other 
States or local laws that are simply notices or disclosures 
about chemicals? It seems to me they would also be in question. 
Would you agree?
    Mr. Jones. Yes.
    Mr. Tonko. With respect to the identified problems with 
TSCA, lack of public confidence, lack of public information 
about chemicals, timely action to address chemical risks, would 
you say this sweeping preemption provision is likely to do more 
or do less to address these issues?
    Mr. Jones. I think that it will--over time, the role of 
States will be diminished. And I think that that will decrease 
the pressure on the Agency to move forward as aggressively as I 
think the drafters were hoping.
    Mr. Tonko. And Section 17 preempts any State or local 
requirement that prohibits or restricts the use of a chemical 
substance for so called intended conditions of use. The bill 
includes disposal of a chemical as an intended use. As a 
result, this language could even override State or local laws 
that limit how drillers dispose of chemical laid and waste 
water from hydraulic fracturing operations. In New York, for 
example, numerous counties have passed laws prohibiting out-of-
State well operators from disposing of hydraulic fracturing 
waste water in county municipal water treatment plants, or 
using the waste water to treat local roadways in winter. Mr. 
Jones, are these the type of restrictions that could be 
preempted by this measure?
    Mr. Jones. As I was saying earlier on some of the issues 
like notification, I think 17(a)(1)(B)(4) actually will do that 
for a number of chemicals. And then other provisions would--
could do that prospectively, depending on decisions made at the 
EPA after the law was passed.
    Mr. Tonko. Thank you. And since we have not received any 
specific examples of State and local regulations that are 
hampering the $770 billion United States chemical business, I 
find this debate quite confusing. States have moved to regulate 
chemicals in response to public concern because the Federal 
program is not functioning properly. Instead of blocking the 
States from responding to public concerns about chemicals, I 
believe we should address the real problem of inadequate 
authorities from your Agency. Do you agree with that 
assessment?
    Mr. Jones. I would agree with that.
    Mr. Tonko. Frankly, with a stronger Federal program, I 
believe there would be less public pressure to enact State and 
local laws for chemical regulation. Public health, labor and 
environmental groups have stated that this draft would, and I 
quote, ``curtail functioning State programs in exchange for a 
Federal program that will continue to be dysfunctional.'' And I 
don't think we ought to let that happen.
    With that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman. And, 
Mr. Jones, thank very much for being with us today. I 
appreciate your testimony.
    In your November 13 testimony, you testified that current 
TSCA places challenges--legal and procedural requirements--on 
the Agency before it can require industry to generate and 
submit the health and environmental effects information and 
data on existing chemicals. Does the Section 4 of the April 
discussion draft improve the Agency's ability to require the 
submission of hazard and exposure data and information by 
authorizing the EPA to obtain it by rule, consent, agreement or 
issuing an order?
    Mr. Jones. Yes, it does.
    Mr. Latta. You say it does. Thank you. Does the April 
discussion draft eliminate the need for EPA to find a substance 
poses an ``unreasonable risk'' before requiring new data to be 
developed?
    Mr. Jones. That is correct. Yes.
    Mr. Latta. OK. And also in your testimony, you discuss how 
there are 84,000 chemicals listed on the TSCA inventory. And 
EPA's most recent snapshot of chemicals actually in commerce 
from the 2012 chemical data reporting, the CDR roll, captured 
7,674 chemicals from 2011. Do you believe that the 7,674 number 
is accurate of the current TSCA inventory, or where do you 
believe that number would be today?
    Mr. Jones. Thanks. The 7,000 number are chemicals that are 
produced greater than 25,000 pounds per year at any given 
facility. The 84,000 number are those chemicals that have ever 
been on the inventory. So the actual number of chemicals in 
commerce would fall between those two. I think that the 7,000 
number captures those that are produced at relatively large 
quantities. There are clearly going to be some number of 
compounds that are manufactured at less than 25,000 pounds or 
at a single facility that are just not required to report under 
the CDR.
    Mr. Latta. OK. And then when we talk about that 84,000 
number, is that correct or is that misleading?
    Mr. Jones. It depends on how one uses it. We don't think it 
reflects the number of chemicals in commerce. It reflects the 
number of chemicals that ever have been placed on the TSCA 
inventory. So we think it doesn't reflect the number of 
chemicals in commerce.
    Mr. Latta. OK. And then you also mentioned in your 
testimony on page 2, I saw that the 60,000 or so chemicals that 
were grandfathered in 1976. How long would you estimate it 
would take to evaluate those 60,000 chemicals?
    Mr. Jones. Well, yes. That sort of goes back to your 
earlier observation about the 7,400 number.
    Mr. Latta. Um-hum.
    Mr. Jones. I think that that represents the universe of 
chemicals we would want to keep our sights on first, because 
they are the ones that are being produced at relatively large 
quantities. And for that universe, I think it would take some 
time for the Agency to get through all that----
    Mr. Latta. Well, on an estimate, just--not just on the 
60,000, but on that 7,674 number, how long--just say, you know, 
ballpark estimate would that take?
    Mr. Jones. It would take several decades to get through a 
number of that size.
    Mr. Latta. OK. Like 30 years then, when you say several?
    Mr. Jones. That's not an----
    Mr. Latta. OK. Any idea--what would the cost be to do that 
evaluation on those--not on the 60,000. Now, we're just going 
back to the 7,600.
    Mr. Jones. So in the early years, because we are required 
to set priorities, we would be doing the harder things first. 
And so we would be doing fewer of them in early years. I think 
after we got through the first thousand or so, I think you 
would see the number we would complete in a given year could 
potentially increase very dramatically so that you would see in 
the latter years a much higher number of chemicals being 
assessed than you would see in early years, even though you 
might have the same number of dollars being spent in any given 
year. We have not costed out what it would take to get through 
all of the chemicals. The discussion draft actually doesn't 
require us to operate at any pace. And so it would be hard to 
estimate what it would take to get through when you don't have 
a pace that you are mandated to work through.
    Mr. Latta. And also doesn't the State preemption under the 
discussion draft only kick in if EPA hasn't taken action on a 
particular chemical?
    Mr. Jones. Well, that is the--and it may have been a 
drafting issue. I just don't--I don't know. But I have referred 
to it a number of times. And I am sorry if I am misstating it. 
But the provision in 17(a)(1)(B), and I believe it is (4), 
actually preempts a State if the Agency, before passage of the 
law, has issued an order, a consent agreement, or a rule under 
Sections 5 or 6. And that is a rather large universe of 
chemicals that is particular under Section 5. So again, I am 
not really sure what that provision was designed to do. But the 
way we are reading it, it preempts things from the date that 
the law passed for anything that already has a significant new 
use rule, anything that already has a consent agreement. Other 
than that provision, what you said, Congressman, is accurate. 
It is prospective action on the part of the EPA.
    Mr. Latta. Thank you very much. And, Mr. Chairman, my time 
has expired, and I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. For decades, the Toxic 
Substances Control Act has operated under an unreasonable risk 
standard, which requires EPA to perform a cost-benefit analysis 
to determine whether or not a chemical is to be regulated. This 
approach has proven unworkable. Only five chemicals have been 
regulated under Section 6 of TSCA since 1976.
    Mr. Jones, you testified in November that EPA needs to have 
clear authority to assess chemicals against a risk-based safety 
standard and to take risk management actions when the chemicals 
do not meet that standard. Costs would still come into play in 
figuring out how best to regulate a chemical, but we shouldn't 
use cost to determine whether the public should be protected 
from a chemical exposure. Not only has EPA endorsed this risk-
based approach, so have a broad range of stakeholders.
    At our last hearing in March, there was unanimous agreement 
among the witnesses that chemicals should be held to a risk-
based safety standard. Mr. Jones, does the revised draft use a 
risk-based safety standard, or does it maintain a cost-based 
approach to risk?
    Mr. Jones. It, Congressman, takes a risk/cost balancing, 
which is pretty much the standard in TSCA right now.
    Mr. Waxman. So if this language were enacted, EPA would 
have to balance the economic cost of regulating against the 
adverse health and environmental effects of a chemical before 
establishing any protections, is that right?
    Mr. Jones. That is correct.
    Mr. Waxman. I would like to explore how this would work in 
the real world. Let us say that this language is enacted and 
EPA evaluates a toxic chemical. Let us say that EPA determines 
that the chemical causes cancer. Before EPA would be able to 
take any action at all to limit the chemical's use in 
children's products, for example, EPA would need to weigh the 
cost to the industry of such action, is that right?
    Mr. Jones. That is correct.
    Mr. Waxman. So this proposal would require EPA to look at 
the cost to industry in determining whether to protect our kids 
from chemicals that cause cancer, is that accurate?
    Mr. Jones. We would have to take into consideration the 
cost to industry and any broader societal costs as well.
    Mr. Waxman. OK. I think many in the public would listen to 
this discussion and find this proposal morally questionable. I 
share those concerns, and we don't need to take this approach. 
Time and again, we have shown that when there is a clear goal 
for protecting health, industry has the creativity and know how 
to get the job done. I am also concerned whether the approach 
in this draft is even workable. Is EPA good at projecting 
industry innovation? Will EPA give the proper weight to 
industry costs?
    Mr. Jones. That is a great question, Congressman. We tend 
to have a very difficult time predicting where innovation is 
going. So we often, almost always, will predict the cost in the 
absence of innovation, and then just straight line it out. Our 
experience, however, has shown that industry is incredibly 
innovative, and rarely do those costs hold over time. They 
typically drop off quite dramatically as industry innovates, 
and those costs go away.
    Mr. Waxman. So as a result, when you look at the costs, you 
end up overstating those costs because you really can't predict 
whether they are going to be innovative enough to hold down the 
costs?
    Mr. Jones. That is correct.
    Mr. Waxman. Do you think that we can protect our kids and 
keep industry's costs manageable if we use a risk-based 
standard that sets a clear goal of protecting health and the 
environment?
    Mr. Jones. I believe we can. Just to be clear, the 
administration principle thinks there should be risk-based 
standards, that cost should be a factor in how we achieve the 
standard. But it has a role, as opposed to having a balancing 
of trying to numerically quantify the monetary value of the 
benefits with the monetary value of the costs.
    Mr. Waxman. But not in setting the standard itself?
    Mr. Jones. In setting the standard, we think we need to 
have the flexibility to consider costs in the setting of the 
standard.
    Mr. Waxman. But you would set the standard with the 
expectation that the standard would be met, and you are not 
looking at just what the industry says the cost will be because 
you can take into account if you have the flexibility that 
almost always in the environmental area that costs are less 
than what is predicted in the beginning?
    Mr. Jones. The goal would always be to achieve the safety 
standard. We would want to be able to consider if the scenario 
where there is a very high cost for very marginal changes in 
safety that we may have a little lower bar in that kind of a 
context. We would want--we would not want to be precluded from 
having a cost consideration.
    Mr. Waxman. OK. Let me just say in closing, Mr. Chairman, 
that I think there is a consensus outside this room that the 
safety standard in TSCA should be risk-based. I am disappointed 
the draft doesn't reflect that consensus. I understand there 
will be a markup of this bill later in the month, and I hope we 
will be able to focus on areas of agreement and abandon these 
controversial proposals. Yield back my time. Thanks.
    Mr. Shimkus. The gentleman yields back the time. The Chair 
now recognizes Chairman Emeritus Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. We just heard from the 
chairman emeritus on the Democratic side, or the former 
chairman and the current ranking member. I am the former 
chairman, the chairman emeritus on the majority side. So you 
kind of get the good, the bad and the ugly here, I guess. Mr. 
Waxman seems to think that this discussion draft is too strong. 
And he talked about the risk-based standard approach that he 
would prefer. I think quite frankly Mr. Shimkus and Mr. Upton 
and their staffs are trying very hard to find the middle of the 
road approach. And I have some unease that maybe they are going 
too far to the left, quite frankly. But I understand what they 
are attempting to do. So you get both sides of it in these two 
rounds of questioning.
    My first question to you as an Assistant Administrator of 
the Office of Chemical Safety, is that a Senate confirmation 
position, or is that a political appointee but not Senate 
confirmed?
    Mr. Jones. It is a Senate confirmed position.
    Mr. Barton. It is Senate confirmed. And what did you do 
before you assumed this position?
    Mr. Jones. I have been a career employee at the EPA until 
Administrator Jackson asked me if I would be interested in the 
Senate confirmed position----
    Mr. Barton. So you have a--I would assume you have a 
technical background in this field in----
    Mr. Jones. I actually have a policy and economics 
background.
    Mr. Barton. OK. OK. I didn't--I wasn't here when you gave 
your opening statement. I would assume that EPA either has no 
position or is moderately opposed to this, is that fair?
    Mr. Jones. We have identified a number of areas that we 
think are not in alignment with the administration principles 
that we have pointed out.
    Mr. Shimkus. If the gentleman would yield just for a 
second? But--and being fair, you also identified a lot of 
``yes'' answers to my questions on positive movements of this 
bill, would that be correct, Mr. Jones?
    Mr. Jones. That is correct. Yes.
    Mr. Shimkus. Thank you.
    Mr. Barton. Well, I would hope so. Well, given how hard you 
are working to make it acceptable, I think that is a good 
thing. If this--if what the chairman has suggested in this--
these proposed changes stick, what would the recommendation be 
in terms of passage if we get it out of committee and to the 
floor?
    Mr. Jones. Well----
    Mr. Barton. Do you think the administration would be----
    Mr. Jones. And I think the administration would like to see 
a bill that aligns with its principles. And I think that the 
areas where I have pointed out that are not in alignment are a 
big enough deal that there would be--the administration would 
have some problems with the ones----
    Mr. Barton. What is the biggest problem in the discussion 
draft?
    Mr. Jones. I think the safety standard is probably the 
biggest one. The new chemicals issue I pointed out is probably 
second. And then the pace of the Agency working on existing 
chemicals, are probably the biggest areas.
    Mr. Barton. If you go out into the real world, I think that 
the industry that TSCA regulates have really, really tried to 
do the right thing. Where do you see the biggest problem? Is it 
noncompliance with the existing regulations, or is it new--just 
is it the new chemicals coming online that are the biggest 
problem, or are existing chemicals not--the industry not 
properly evaluating under current law?
    Mr. Jones. That is a great question, Congressman Barton. I 
couldn't agree with you more. As a matter of fact, until this 
hearing was called, I was supposed to be in Bentonville, 
Arkansas, today at Walmart, who I think has been a real leader 
in this space in trying to get ahead on safer chemicals. I 
think some of the companies coming behind me in the next panel 
have been real leaders. New chemicals, I don't believe, is 
where the challenge has been. I think it has been with existing 
chemicals. And there, I think it is a subset of existing 
chemicals. We looked at about 1,000 chemicals of that entire 
universe that Congressman Latta pointed out as chemicals that 
have expressed some hazard that we think it is really important 
for the Agency to evaluate for safety assessment purposes. But 
because we never have done that, unless a retailer who is 
telling you they won't accept it, I don't know why a company 
wouldn't continue to manufacture those. So I think it is 
existing chemicals. And there, I think it is actually a 
relatively--relatively narrow subset. I am talking about 1,000 
and not, you know, 40,000 or 20,000.
    Mr. Barton. Right.
    Mr. Jones. It is still a big number. But I agree that I 
think many consumer facing companies and retailers have been 
way out front on this issue, much further out front than we 
have.
    Mr. Barton. My time has expired. But, Mr. Chairman, I want 
to commend you and the ranking subcommittee member, Mr. Tonko. 
It sure looks to me like you all are trying to find a middle 
approach. And I am supportive of that. But I do, from the 
right, want to say let us don't throw the baby out with the 
bath water, because we still want to--if we are going to get a 
revision, it needs to be something that will work in the real 
world. And I am leery of continuing to give EPA too much 
discretion, because I think the more explicit we can be with 
what they should do, the greater the probability is that they 
will do their regulatory function in a fair manner. And with 
that, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Michigan, Mr. Dingell, for 5 
minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. I 
commend you for the hearing. And I am very pleased to see you 
working on this legislation.
    Back in 1976, I submitted report language in regard to 
weaknesses that exist in the current Toxic Substances Control 
Act. I stated it was essential for the protection of public 
health and the environment that EPA have a firm mandate for a 
comprehensive approach to protection from hazards due to 
chemical substances, and that such success would only lead to 
legislative directives and adequate funding support.
    Mr. Jones, you stated in your testimony that in order to be 
successful, EPA must have the resources it needs to protect the 
American people from exposure to harmful chemicals. I am 
satisfied that that has been a lack that you have confronted 
down there. Now, under CICA, does EPA have appropriate 
resources to quickly and efficiently implement the various 
framework, process, criteria and guidance provision which must 
be in place prior to EPA beginning action on specific 
chemicals, yes or no?
    Mr. Jones. I think it is more a question, Congressman 
Dingell, of the years which were provided is probably a little 
bit too short.
    Mr. Dingell. OK. So you are telling me ``no'' on this. And 
I am asking you to submit to us additional information----
    Mr. Jones. Sure.
    Mr. Dingell [continuing]. So that we will have a clear 
picture of what the needs are. And I ask unanimous consent that 
that, Mr. Chairman, and other matters be inserted into the 
record in the appropriate fashion and place.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Dingell. Now again, Mr. Jones, once EPA is able to take 
action on specific chemicals under CICA, does the EPA have the 
resources needed to quickly and efficiently determine 
prioritizations, assessments, determination and risk 
managements, yes or no?
    Mr. Jones. I am sorry, Congressman. Those are a little more 
than yes or no questions. But the bill doesn't require----
    Mr. Dingell. Just yes or no.
    Mr. Jones. Well, the bill doesn't require----
    Mr. Dingell. And I am asking you to submit in greater 
detail, because we don't have a lot of time to toe dance around 
on this.
    Mr. Jones. I would say yes, but the number we would do 
would be I think disappointingly small.
    Mr. Dingell. Well, that is almost a comical answer here. 
Now, EPA has over 84,000 chemicals listed in its TSCA 
inventory, and a little over 200 have been acted on in 37 
years. It doesn't make it look like you have authority here, or 
that you have resources. EPA has identified an initial work 
plan of chemicals for assessment which includes 83 substances 
in addition to identifying several hundred chemicals on the 
safer chemical ingredients list. Is that true, yes or no?
    Mr. Jones. Yes.
    Mr. Dingell. All right. Under current TSCA, does EPA have 
the appropriate resources to complete more than 20 risk 
assessments per year on existing chemicals?
    Mr. Jones. No.
    Mr. Dingell. Please answer yes or no.
    Mr. Jones. No.
    Mr. Dingell. Would you respond in addition for the record 
on that matter?
    Mr. Jones. Yes.
    Mr. Dingell. Now, what kind of resources would EPA need in 
order to perform the 20 or more additional risk assessments per 
year, please submit that for the record.
    Mr. Jones. Sure.
    Mr. Dingell. So we have a decent appreciation of our needs 
here. Now, as you know, I have had the privilege to live in the 
Great Lakes region, home for 20 percent of the world's fresh 
water supply, as well as tremendous hunting and fishing and 
recreational areas. Many of my constituents have voiced 
concerns that CICA does not ensure adequate public health and 
safety standards needed for high-risk toxic chemical 
contamination found in this region. Would EPA be better able to 
regulate new and existing chemicals if they were granted 
authority to set priorities for conducting safety reviews based 
on relevant risks and exposure conditions, yes or no?
    Mr. Jones. Yes.
    Mr. Dingell. Would you please submit amplification for the 
record on that?
    Mr. Jones. Sure.
    Mr. Dingell. Now, if both chemical manufacturers and EPA 
had the ability to assess and act on priority chemicals like 
those potentially found in the Great Lakes, would EPA be better 
able to regulate these chemicals in timely manner, yes or no?
    Mr. Jones. Yes.
    Mr. Dingell. Now, would you please submit amplification on 
that for the purposes of the record?
    Mr. Jones. Yes.
    Mr. Dingell. Now, it is my concern that if Congress fails 
to provide necessary funding to a new TSCA program, public 
health protections will be left without legs to stand on. As I 
mentioned in a number of previous hearings, any overhaul of 
this law must be a broad bipartisan one. It is my hope that 
this subcommittee will find a process to ensure that all 
stakeholders have the opportunity to see their concerns 
reflected in a final bill. I continue to be committed to 
fulfilling this need, and I intend to work with my colleagues 
in creating reform that industry, consumers, environmental and 
public health groups desperately want and need. And you, Mr. 
Chairman, I commend you for your legislation and for the 
hearings. I thank you. These are questions that have got to be 
answered if we are proceeding in the proper way on this. This 
is a piece of legislation that has sat around, and I think will 
probably sit around until hell freezes over if something is not 
done about it. So thank you for your leadership.
    Mr. Shimkus. I thank my colleague. And the Chair now 
recognizes the gentleman from West Virginia, Mr. McKinley, for 
5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. Let me just begin by 
applauding you. Your line of questioning at the beginning of 
this hearing was--they were right on. You were able to 
demonstrate that there has been progress made with it. And I 
appreciate that. I think they were very good questions with 
that.
    I am just curious, Mr. Jones, Mr. Tonko has said that this 
current draft weakens current law. I heard Mr. Waxman say that 
it doesn't protect public health. I heard him them go on to say 
that it may even be--chemicals may be contributing to the rate 
of autism in this country. Do you agree with all those three 
statements?
    Mr. Jones. We have been trying to evaluate----
    Mr. McKinley. Let us take it--yes or no?
    Mr. Jones. We have been trying to evaluate this and other 
forms of legislation----
    Mr. McKinley. Yes or no, please. Do you agree with it that 
it is--it weakens current law?
    Mr. Jones. I don't think I would take an opinion on that.
    Mr. McKinley. OK. Does it--has it weakened public safety, 
public health?
    Mr. Jones. It does not advance public health in the way 
that we think it----
    Mr. McKinley. Does it have a link to autism?
    Mr. Jones. One of the problems that we have in the chemical 
space is that because there's not been enough data generated, 
it is hard to make statements with respect to issues like that.
    Mr. McKinley. I have heard--and I am just curious. If it 
does any of those three, who is responsible for that? Is it the 
industry? Is--are we developing a profile across America? Is 
that what is trying to come out of this Congress is the 
chemical industry is trying to weaken existing law? It wants to 
increase autism? It wants to increase--decrease public health? 
Is that what you see in an overview of 30,000 feet what this 
bill does?
    Mr. Jones. I see an honest effort on the part of a lot of 
people to make improvements, and I see disagreements amongst 
stakeholders as to whether or not it is----
    Mr. McKinley. But if the threat continues to be that it is 
doing these and other things, you are saying about safety and 
new chemicals, if it has--are we--I want to make sure I 
understand your testimony and those from the other side of the 
aisle. That this is the chemical industry itself is causing 
these problems? Because if it is not the chemical industry, 
then it is our staff is writing these things to decrease public 
safety and public health and weaken the current law? Who has 
got the--who wrote the words to make it negative?
    Mr. Jones. You know, I am on the outside here. And I am not 
holding the pen. And I can't speak to the motivations, nor do I 
choose to try to understand really the motivations.
    Mr. McKinley. Do you really think the chemical industry is 
trying to hurt the public health?
    Mr. Jones. No, I don't.
    Mr. McKinley. OK. Do you think it is trying to weaken 
current law?
    Mr. Jones. You know, I think those are questions for the 
chemical industry who are coming up right behind me. I----
    Mr. McKinley. No. I know it is your opinion. I--maybe we 
will ask them later. But do you really think they want to 
weaken current law?
    Mr. Jones. Again, I don't----
    Mr. McKinley. Yes or no?
    Mr. Jones. I have been in this game for quite a long time, 
and I don't attempt to understand all of the motivations behind 
all of the players. I try to evaluate what the facts are in 
front of me and make informed decisions based on that.
    Mr. McKinley. Do you really think that the rate of autism 
is going to be affected by this TSCA reform legislation?
    Mr. Jones. I think that if we had better health and safety 
data we would be making more informed and protective decisions 
around chemical safety in the United States.
    Mr. McKinley. I would be curious to see--my grandson's 
autistic. And in a number of meetings and discussions we have 
had with doctors about this, they have never talked about the 
chemical industry being behind this. I just wonder perhaps if 
this is just one more scare tactic to try to cause 
consternation and confusion in our economy right now, because 
we have not heard that. So this was the first time I have heard 
that today. And shame on people if they are using a scare 
tactic to try to get something, because I think this committee 
has done a yeoman's job in trying to correct the problems. And 
I don't think it is the chemical industry that is trying to 
weaken any of these provisions. I think there is another agenda 
out there. And I would sure like to understand. I hope that you 
will be able to submit something to explain why people think 
the chemical industry wants to put the health of this Nation at 
risk.
    Mr. Jones. I could only speak to what the administration's 
attempting to achieve, which is to strengthen the chemical 
safety laws in the United States.
    Mr. McKinley. Thank you. I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from New Jersey, Mr. Pallone, for 
5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. Over the last few 
months, my staff has been at the table with your staff to 
discuss the draft Chemicals in Commerce Act and work towards 
the compromise bill. Changes have been made since the initial 
draft. But, unfortunately, the version before us today does not 
reflect sufficient input from Democratic members, including 
myself.
    At the last TSCA hearing on March 12, every witness in 
attendance stated the chemicals in commerce should be held to a 
risk-based standard without consideration of cost. But, 
unfortunately, the draft before us does not meet that standard. 
Further, vulnerable populations are not sufficiently protected 
under the risk management standard in the draft.
    So, Mr. Chairman, obviously reforming TSCA is crucial to 
protecting Americans from unsafe chemicals, and I am 
disappointed in the current draft before us today. And I would 
simply ask that before the subcommittee moves to markup this 
bill that you work to address the concerns raised by myself and 
other Democratic members.
    I had----
    Mr. Shimkus. Would the gentleman yield for one second?
    Mr. Pallone. Oh, certainly. Sure.
    Mr. Shimkus. And I would ask that my friends on the other 
side start sharing some language with us, which we have been 
asking for for probably six weeks.
    Mr. Pallone. OK. Thank you. Let me ask some questions of 
Mr. Jones.
    The Toxic Substances Control Act requires that when EPA 
needs to regulate a chemical, it must use the least burdensome 
option. And this least burdensome requirement is widely 
recognized as one of the biggest obstacles to effective 
implementation of TSCA. Since EPA's failed attempt to regulate 
asbestos in the corrosion proof fittings decision, EPA has been 
saddled with performing time and resource intensive cost-
benefit analysis on every potential alternative, not just as on 
a regulatory control option selected. So, Mr. Jones, you 
referred to this problem as paralysis by analysis in the past. 
Is this a problem that should be addressed in TSCA reform?
    Mr. Jones. It absolutely is a problem that should be 
addressed in TSCA reform.
    Mr. Pallone. Now, the draft removes the language least 
burdensome, but replaces it with a new requirement for cost 
effectiveness. So in your assessment, does this draft risk 
recreating the problems of the least burdensome requirement 
with this new cost effectiveness requirement?
    Mr. Jones. Thanks, Congressman. I think it would be 
important in legislation to be clear about how expansive the 
cost effective analysis would need to be. What we would be 
worried about is that a court would decide that all 12 or so 
options of risk management had to be evaluated for us to be 
able to say that the one we selected was cost effective. 
Another reading would be as long as we have looked at a couple 
of options that that bound the options that we would have 
achieved the cost effective. Cost effective is a relative term 
inherently. So I think it would be useful to have clarity on 
that point so that we don't have the same kind of paralysis by 
analysis that least burdensome created.
    Mr. Pallone. Well, would the EPA be able to act move 
effectively, but still adequately, considering the effects of 
its actions if this cost effective requirement were to be 
deleted?
    Mr. Jones. That would be a way to achieve that objective.
    Mr. Pallone. All right. The bill also establishes a new 
requirement that when EPA decides to limit the use of a 
chemical for a specific use, the Agency has to determine that 
alternatives are technically and economically feasible. And 
this puts EPA in the position of having to project market 
innovation, rather than relying on the market to develop safer 
alternatives as necessary. So do you have concerns about that 
requirement?
    Mr. Jones. I think that you are right that that has--there 
is an anti-innovation aspect of that that we have seen over and 
over again in many, many different contexts, the ability of the 
American industry to innovate things that may not have been 
available at any given time. And our ability to predict that is 
very limited.
    Mr. Pallone. So, Mr. Jones, when you look at the provisions 
we just discussed, are you concerned that they could have the 
effect of protecting the market position of dangerous chemicals 
and articles, rather than spurring innovation?
    Mr. Jones. Yes.
    Mr. Pallone. Yes. OK. Well, as I had previously mentioned, 
I think they should be removed from the draft to enable the EPA 
to act and to encourage innovation. Those are my questions. 
Thank you, Mr. Chairman.
    Mr. Shimkus. I thank my colleague. The Chair now recognizes 
the gentleman from Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman. Mr. Jones, are you 
familiar with Canada's approach when it prioritized 23,000 
chemicals on its domestic substances list several years ago?
    Mr. Jones. I have some familiarity with the Canadian 
approach. Yes.
    Mr. Pitts. Well, after Canada completed its prioritization, 
it set aside approximately 19,000 chemicals as essentially low 
priority. Canada does not intend to conduct risk assessment on 
those substances, unless new information indicated a need to 
reevaluate that approach. Does the April draft provide the 
Agency authority to similarly review chemical substances in 
U.S. commerce and identify substances that may not warrant a 
reevaluation?
    Mr. Jones. It does. I would not be able to speak to the 
standard that Canada used to call something a lower priority 
versus the standard that has been in the discussion draft, 
because we have just not--we have not thought about it in that 
context.
    Mr. Pitts. Well----
    Mr. Jones. But we would be able to set priorities.
    Mr. Pitts. Well, in the proposed assessment of 
grandfathered chemicals, do you believe some form of 
prioritization would be key?
    Mr. Jones. I think it is very important.
    Mr. Pitts. Yes. Now, your prepared statement seems to 
suggest that you want a registration and licensing program 
under TSCA for new chemicals, do I understand you correctly?
    Mr. Jones. No, I don't. I just think it is important for 
the Agency, before a chemical moves to the market, to speak to 
its safety.
    Mr. Pitts. Do you believe that EPA will be able to make 
screening level priority determinations for most existing 
chemicals based on information that is currently available to 
the Agency?
    Mr. Jones. I believe that there are enough existing 
chemicals that, for the first probably dozen years, we will be 
able to focus our work on those chemicals for which we can make 
such determinations. And then I think we will need to be in the 
mode of data gathering for chemicals that are not well 
characterized.
    Mr. Pitts. Do you think the Agency would have any 
difficulty showing why available information on a chemical is 
insufficient for priority setting or risk evaluations? And, 
hence, why new information might be needed by the Agency for 
one of the regulatory purposes outlined in Sections 4--Section 
4(a)(1)?
    Mr. Jones. I think we would be able to do that. Yes.
    Mr. Pitts. In your testimony on November 13 before this 
subcommittee, you testified that a necessary improvement to 
TSCA is a mandatory program that gives the EPA the authority to 
review the safety of existing chemicals. Does the April 
discussion draft include such a program?
    Mr. Jones. It moves in that direction. What I think it is 
lacking is a requirement the Agency set a certain number of 
high priorities every year. Once a chemical is determined a 
high priority, we are then on a pace. We have 4 years to do a 
safety assessment, and then 3 years after that to do risk 
management. But the Agency could choose to have a very, very 
low number of chemicals set as high priority. And thinking--
creating something that creates that constant forward motion 
with some robust number I think would be important.
    Mr. Pitts. Is a 4-year deadline to complete risk 
evaluations, established in Section 6, sufficient time for the 
Agency?
    Mr. Jones. Yes, it is.
    Mr. Pitts. Does the April draft provide flexibility--enough 
flexibility to take into account a range of considerations when 
chemicals do not meet a safety standard, including children's 
health, economic costs, social benefits, equity concerns? Does 
that draft provide the flexibility to the Agency that you 
desire in Section 6?
    Mr. Jones. I think it requires a determination that this 
cost-benefit balancing we think will make it hard to be 
effective and is not as health-protective as we would like it 
to be.
    Mr. Pitts. And does the discussion draft prohibit EPA from 
considering cost and benefits when making a risk evaluation on 
a chemical substance?
    Mr. Jones. It prohibits us in the risk evaluation phase, 
yes.
    Mr. Pitts. In the risk--yes. My time is up. Thank you, Mr. 
Chairman.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from California, Mr. McNerney, for 
5 minutes.
    Mr. McNerney. Well, I thank the chairman. Mr. Jones, in 
your testimony, you mentioned that the TSCA does not require 
the EPA to conduct a review and determine the safety of 
existing chemicals? You mentioned that the EPA--that the TSCA 
places burdensome legal and procedural requirements on the EPA 
before the Agency can request health and environmental effects 
on existing chemicals?
    Mr. Jones. Correct.
    Mr. McNerney. So my question is, the Chemicals in Commerce 
Act gives the EPA 90 days to develop a profile of a particular 
chemical substance and a potential for exposure to humans and 
the environment. As of today, could the EPA meet this 90 day 
timeframe?
    Mr. Jones. For new chemicals, we currently meet that 
timeframe in the vast majority of chemicals we are looking at. 
New chemicals.
    Mr. McNerney. OK. Thank you. Would asking companies to 
provide the EPA with a minimum data set assist the Agency in 
making timely, informed determinations on these chemicals?
    Mr. Jones. We don't believe a standardized minimum data set 
is warranted for new chemicals. And--or for existing chemicals, 
for that matter.
    Mr. McNerney. Do you believe it would be beneficial for the 
United States to use the European model as a template?
    Mr. Jones. No, but I believe it would be beneficial to use 
the data generated for purposes of the European model.
    Mr. McNerney. Oh.
    Mr. Jones. That would be very beneficial to chemical safety 
in the United States.
    Mr. McNerney. Is that permitted in the Chemicals in 
Commerce Act?
    Mr. Jones. It is not prohibited. The--some of the problems 
that we are dealing with relate to the way in which the 
European model was created. And some of the agreements 
manufacturers who joined consortia have with respect to when 
they can provide data. But the U.S. law, I don't believe can 
require another government to give us something, or a company 
who doesn't operate here to give us something. So I think these 
are some issues that just need to get worked through.
    Mr. McNerney. Is there an opportunity in the Chemicals in 
Commerce Act to do that?
    Mr. Jones. I think it is worth exploring.
    Mr. McNerney. Thank you. We have heard from the GAO and 
other stakeholders throughout this process that the EPA needs 
more information and testing. But these so called scientific 
standards in the new draft simultaneously restrict the EPA's 
testing authority while establishing a mandatory duty to the 
EPA to consider a prescriptive list of elements when evaluating 
studies and tests. Mr. Jones, if enacted, would the scientific 
standards language provide additional opportunities for 
litigation, in your opinion?
    Mr. Jones. I think it would. I think it deserves some 
looking at to make sure there aren't--that I would expect--
unintended consequence.
    Mr. McNerney. Increased litigation could result in 
scientific issues being resolved in the courtroom.
    Mr. Jones. That is correct.
    Mr. McNerney. Are judges well-equipped to make decisions 
about scientific issues?
    Mr. Jones. I am not--I would prefer not to--I think in 
general, they would prefer that they are made in agencies like 
the EPA.
    Mr. McNerney. Right. So we should be concerned about 
putting courts in the position of rendering judgments on 
scientific matters?
    Mr. Jones. Yes.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Georgia, Mr. Gingrey, for 5 
minutes.
    Mr. Gingrey. Mr. Chairman, thank you. And, Administrator 
Jones, I wanted to ask you a series of questions about fees and 
fee structures. So all of these will be quick questions. And 
first of all, how does the Agency--how does the EPA--currently 
collect user fees under TSCA?
    Mr. Jones. We right now have authority to collect them only 
for the pre-manufacture notices, the new chemicals. And it is a 
relatively small amount of money, partly because that money 
goes directly to the Treasury. EPA does not get those fees 
right now, and it is only for pre-manufacture notices.
    Mr. Gingrey. Well, that leads to the second question. Does 
the EPA anticipate that user fees would be additive or 
replacement for some of your existing funds, as appropriated?
    Mr. Jones. I believe if the Congress' intent was that we 
move quickly and do many chemicals that they would need to be 
additive to our existing resources.
    Mr. Gingrey. What is your budget breakdown by category for 
the individual sections of TSCA?
    Mr. Jones. Funny you should ask that.
    Mr. Gingrey. If that is going to take too long, I will just 
skip down to the next----
    Mr. Jones. I got it right here. Yes. So we spend about 16--
just under $17 million for new chemicals, about $28 million for 
existing chemicals, and $12 million or thereabouts on the 
information systems that service both those.
    Mr. Gingrey. So what is the EPA budget in both funding and 
full-time equivalent for the chemical review under Section 5?
    Mr. Jones. Ballpark, about $16.7 million.
    Mr. Gingrey. I am sorry. How much?
    Mr. Jones. Sixteen--just under 17 million, $16.7 million 
for Section 5.
    Mr. Gingrey. And what would the Agency expect the outlays 
to be under the new TSCA Section 4 authority?
    Mr. Jones. I am sorry. Could you ask that again?
    Mr. Gingrey. What would the Agency expect the outlays to be 
under the new TSCA Section 4 authority?
    Mr. Jones. You know, we spend about $12 million now in data 
gathering, but we have not costed out under the--you know, the 
discussion draft what we would spend under that authority. 
Interestingly, we would probably be getting more data. But it 
would be cheaper to get it, because the orders are much cheaper 
to do than rulemakings are.
    Mr. Gingrey. How about Sections 6, 8 and 14?
    Mr. Jones. So--and I have costs for what we are spending 
now on Section 6 and the other existing chemicals programs. But 
we have not costed out what it would be under the discussion 
draft. But I--it does allow me to make some general ballpark 
estimates of what a chemical under the provision would cost us.
    Mr. Gingrey. Let me try this one, too. Evaluate, let us 
say, 20 chemicals per year. How much money and staff would 
you--do you think you would need?
    Mr. Jones. I think early days where we are trying to work 
on the more difficult ones first, because the higher priority 
ones would be the more difficult ones----
    Mr. Gingrey. Sure.
    Mr. Jones. I think about a million dollars per chemical, so 
$20 million. Over time, $20 million will go a lot farther than 
that as the chemicals get easier to do. But at the beginning, I 
would say 20 chemicals----
    Mr. Gingrey. Yes, that sort of leads to the rest of that 
question. What would you need to evaluate 50 chemicals, 100 
chemicals? And is there an economy of scale?
    Mr. Jones. There definitely would be--partly it would be 
more efficient as we learned. And then there would be this 
other phenomenon whereby the farther down we got with 
chemicals, they would get easier to do. And so it would become 
cheaper per chemical. That would take a little while to get to 
that point, but that would certainly happen.
    Mr. Gingrey. And my final question for you, if the Agency 
got new fee authority provided in the discussion draft, how 
would you implement it?
    Mr. Jones. That is an interesting question. In the other 
part of my operation, which is the pesticides program, we have 
fee authority. And the way it actually came about--and actually 
you have some panelists on the next panel who participated in 
it--is the stakeholders, the NGOs, and the industry actually 
came up with the construct. It gets into very great detail, but 
that is what they wanted. They wanted a lot of detail with 
respect to it. Whether the--you had a scenario where 
stakeholders developed the fee structure, or you gave EPA the 
authority--if we had the authority, we would get together with 
the stakeholders to figure out how to do something that was 
fair and equitable.
    Mr. Gingrey. Mr. Jones, thank you. Mr. Chairman, I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. And we have other 
committee hearings going on, so you are going to see us jumping 
around and--but I want to thank both Chairman Shimkus and 
Ranking Member Tonko for holding the hearing today on the 
updated Chemicals in Commerce Act discussion draft. And I 
particularly want to thank the Chair, and appreciate your 
patience and leadership in working with us on the drafts. 
Ultimately, we want to get to a bill. And, hopefully, we will 
get there. But I also want to thank Assistant Administrator 
Jones and the witnesses on the second panel for joining us.
    Mr. Jones, I need just--some of these are yes or no. If 
enacted, would the discussion draft--the latest one, as 
written--increase EPA's authority to protect human health and 
the environment from harmful chemicals over current law? Would 
the second draft be better than current law?
    Mr. Jones. It has--there are marginal areas of improvement, 
as particular data gathering authority.
    Mr. Green. OK.
    Mr. Shimkus. So, that is a ``yes''?
    Mr. Jones. I would----
    Mr. Shimkus. This is important. It is a ``yes'' or ``no''?
    Mr. Green. What it means if it is a ``yes,'' we are going 
in the right direction.
    Mr. Jones. You are moving in the right direction.
    Mr. Green. OK. Does the discussion draft provide EPA with 
full and complete authority to obligate companies to provide 
toxicity data?
    Mr. Jones. Yes.
    Mr. Green. OK. The discussion draft actually does that?
    Mr. Jones. Yes.
    Mr. Green. OK. Does the discussion draft provide the 
necessary authorities to protect vulnerable populations such as 
children, pregnant women and workers from harmful exposure to 
toxic chemicals?
    Mr. Jones. It requires us to include them in our safety 
evaluations.
    Mr. Green. OK. Does the EPA currently look at the aggregate 
exposure of chemicals today in meeting the current safety 
standard? If not, do you believe that the Agency should have 
that authority to do so?
    Mr. Jones. In the toxics program, we have just started 
doing chemical assessments and have so far not aggregated all 
sources of exposure. I think that that is the direction that we 
need to move in though.
    Mr. Green. OK. Do you know if the discussion draft has--
addresses that?
    Mr. Jones. I don't believe it mandates that we aggregate 
all exposures. But I will need to confirm that.
    Mr. Green. OK. In the discussion draft, would information 
claimed as confidential business information be allowed as 
evidence in a court of law?
    Mr. Jones. I can't answer that question. Sorry, 
Congressman.
    Mr. Green. OK. Would amending TSCA so it would have 
judicial standard review found in the Administrative Procedures 
Act enhance the law's protection of human health?
    Mr. Jones. The substantial evidence I believe is the 
judicial standard in the discussion draft.
    Mr. Green. That is in the discussion draft. But if it was 
changed to be similar to what the Administrative Procedures 
Act, would that enhance the law's or the discussion draft's 
protection of human health?
    Mr. Jones. And I am not able to answer that question.
    Mr. Green. OK. Has the Agency ever reconsidered exemptions 
for chemicals regulated under Section 5 of current TSCA? And if 
so, what chemicals, and would a status reconsideration--has the 
Agency reconsidered exemptions for chemicals under Section 5?
    Mr. Jones. We have added the number of exemptions under 
Section 5.
    Mr. Green. OK. So if chemicals--can you name those 
chemicals, or give us a status of that reconsideration----
    Mr. Jones. There would be categories of chemical--
categories that included exemptions over time.
    Mr. Green. OK.
    Mr. Jones. And we can describe what those categories are.
    Mr. Green. In your testimony, you state that EPA should 
have the flexibility to consider, among other things, equity 
concerns, which--when making a risk management action. Could 
you explain what you mean by equity concerns, and why are they 
important to the administration--to the Agency?
    Mr. Jones. So the benefits of decisions don't always--
aren't always enjoyed equally across society. And just 
understanding where those--where the benefits fall and where 
the costs fall so that we have our eyes wide open when we are 
making decisions.
    Mr. Green. OK. Well, Mr. Chairman, this is the first time I 
think in a long time I have any time left. Does anybody on our 
side need another half a minute or so? I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Jones, I 
understand that printed circuit board manufacturers recently 
met with EPA officials to discuss TSCA reporting obligations on 
byproducts sent for recycling.
    Mr. Jones. Yes.
    Mr. Johnson. Now, the good news is this meeting has been 
characterized to me by those manufacturers as a constructive 
step in addressing industry's concerns that TSCA reporting on 
byproducts is unnecessarily burdensome and complex. So I would 
simply like to ask today for your commitment to continue 
working closely with industry over the next month to determine 
how reporting on byproducts sent for recycling can be reduced 
or eliminated.
    Mr. Jones. I think we are going to--I know we are going to 
continue to have some discussions, both inside and with the 
manufacturers to get this to a better place. I don't think it 
will be a place that has absolutely no reporting, but the 
reporting may fall in a completely different group than where 
it is at.
    Mr. Johnson. Well, we are looking for commonsense. And I 
appreciate it.
    Mr. Jones. I agree with that.
    Mr. Johnson. That is what I heard from the industry. So I 
appreciate that. I fear that if EPA continues to seek 
information through TSCA which duplicates reporting under other 
statutes and therefore is of minimal regulatory value, 
byproducts manufacturers who currently recycle may choose to 
landfill that waste in order to avoid the regulatory burden and 
enforcement liability. You know, we should do all that we can 
do encourage recycling of those secondary materials----
    Mr. Jones. Yes.
    Mr. Johnson [continuing]. Which are often rich in metals 
and other valuable materials, by establishing sensible and non-
overlapping reporting regimens that minimize the burden on 
industry. It ought to be a business friendly environment.
    Mr. Jones. I think we can figure out a----
    Mr. Johnson. I would very much like to work with you in 
concert with manufacturers to more closely align TSCA reporting 
with the goal of supporting byproducts recycling. While I 
believe this committee is prepared to legislatively remedy this 
issue, I hope we can all agree then that an administrative 
remedy is the preferred short-term solution. So can I have your 
commitment to work with the industry and our committee today to 
determine how this can be resolved as quickly as possible?
    Mr. Jones. Yes, you can.
    Mr. Johnson. Well, those were easy questions, weren't they?
    Mr. Jones. They were.
    Mr. Johnson. Good deal. All right. Thank you. Mr. Chairman, 
I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from Colorado, Ms. DeGette, for 5 
minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. And thank 
you, Administrator Jones, for coming. You know, I have to say 
that I--that there are members on both sides of the aisle, as 
you know, who have been working together on trying to find 
consensus on this bill. And we have been meeting for quite some 
time, Mr. Green and me and Mr. Tonko and the chairman and 
others. And we have made a big investment of our time and 
effort into trying to untie this very complicated knot. But I 
would agree that time is running short. And I would also agree 
with what you said, Mr. Administrator, that this latest 
discussion draft is moving the ball forward a little bit. But I 
still think we need to have some substantive changes before we 
get to that sweet spot. And I also agree with the chairman that 
I think at this point, the--this side of the aisle, my side of 
the aisle needs to put some specific language forward. So, Mr. 
Chairman and Mr. Tonko, I look forward to working with both of 
you so that we can get some language that will help address the 
concerns that we still have.
    The one issue--I always try to not repeat what everybody 
else said. And I think there is--but I do have concerns with 
some of the other issues other members have raised. But 
something we haven't talked a lot about yet today is Section 14 
of the discussion draft, confidential information. Under the 
current law, if a company designates certain information as 
confidential business information, the EPA has to shield that 
information from the public. And because company's claims don't 
have to require justification and there is no penalty for over 
claiming, virtually everybody agrees there has been a lot of 
misuse of this provision.
    Now, in the proposed draft, this trend continues. There is 
no upfront substantiation required for confidential business 
information, except in this specific identity of a chemical. So 
this is what I want to ask you about.
    There is also a new restriction in the latest draft that 
places on EPA's ability to share the most critical piece of 
chemical information, health and safety studies. While current 
law provides that health and safety studies can never be 
claimed as CBI, the new draft would allow companies to keep 
secret the identity of chemicals implicated in a health and 
safety study. So that is what I want to ask you about, Mr. 
Jones. Isn't it true that the Agency has been tightening its 
policies on CBI in an effort to increase transparency?
    Mr. Jones. That is correct.
    Ms. DeGette. And in 2010, didn't the Agency issue a policy 
that it would generally deny confidentiality claims for the 
chemical identities and health and safety studies?
    Mr. Jones. That is correct.
    Ms. DeGette. And so the proposal we are examining today 
would essentially overturn these 2010 reform efforts, is that 
correct?
    Mr. Jones. Yes.
    Ms. DeGette. Now, would that be consistent with the 
administration's principles on TSCA reform?
    Mr. Jones. No, it wouldn't.
    Ms. DeGette. Now, what is the problem with in allowing 
companies to keep chemical identities secret in health and 
safety studies?
    Mr. Jones. So although the public would have access to a 
toxicological study, let us say a study on developmental 
effects or cancer reproductive effects, they wouldn't be able 
to discern what chemical was associated with the effect.
    Ms. DeGette. So they wouldn't know what chemicals to avoid, 
is that right?
    Mr. Jones. They wouldn't know what chemicals to avoid.
    Ms. DeGette. Right. Now, we heard from others that a 
generic name for a chemical is sufficient. Now, in your review, 
has that been the case?
    Mr. Jones. It can be, but it really is a function of how 
much information is conveyed in the generic name.
    Ms. DeGette. OK. Now, the latest draft attempts to resolve 
the problems with generic names by introducing a new term, 
unique identifier, so that the administrator may disclose the 
maximum amount of information about the chemical structure. 
Will this get at the problem?
    Mr. Jones. Well, a unique identifier is important, but it 
may--you can have a unique identifier that actually doesn't 
really tell the public or anyone else about the key element of 
the structure that they might be concerned about.
    Ms. DeGette. OK. Now, are there cases where the only 
appropriate unique identifier would be the actual identity of 
the chemical?
    Mr. Jones. Well, you could just make up a name, and that 
would be a unique identifier.
    Ms. DeGette. I guess so. OK. So, Mr. Chairman, I think this 
is one issue we can really continue to work on, because I think 
you are trying to make some effort. But I think we need some 
more work. And I look forward to continuing to participate in 
this effort. And I yield back.
    Mr. Shimkus. The gentlelady yields back her time. I thank 
her for her questions. The Chair now recognizes the gentleman 
from Louisiana, Dr. Cassidy.
    Mr. Cassidy. Hey, sir. Whenever I go to a TSCA hearing, my 
head always ends up being turned around, because it seems as if 
people are disagreeing on things which should be common ground. 
So let me kind of see if you can get my head turned on right. 
And I don't mean this to challenge, I just mean this to 
whatever. I read on page 36 that--or beginning perhaps page 
35--that you are supposed to--the EPA would do a high-priority 
risk evaluation. And among other things, determine the hazard. 
Hazard being, if you will by definition, or risk--determine the 
risk, which is by definition hazard times exposure.
    Mr. Jones. Um-hum.
    Mr. Cassidy. OK. And then once determining that, going over 
to maybe the next subsection, subsection C, there is a method 
by almost a graduated scale. You can say listen, it is a high 
risk, but there is--so it is never--you are never going to be 
exposed under these circumstances, so don't worry about it. And 
you keep on kind of working your way all the way to where there 
is a total ban. Now, that seems the way it should work.
    Mr. Jones. Um-hum.
    Mr. Cassidy. Would you agree with that?
    Mr. Jones. That we should be making risk-based 
determinations, yes.
    Mr. Cassidy. And that there should be some latitude for EPA 
to make a determination as to what is the potential exposure. 
If the potential exposure is nil, it sure may be a great 
hazard, but exposure if nil so therefore we are OK with it.
    Mr. Jones. Anything times zero is zero.
    Mr. Cassidy. All the way up until oh, my gosh, we just need 
to totally eradicate this from society?
    Mr. Jones. Correct.
    Mr. Cassidy. Now, that seems that mechanism is laid out 
here. And it seems like that is what we should--that is the 
paradigm we should be employing. Would you agree with that?
    Mr. Jones. I think that the risk evaluation side is laid 
out that way. When it gets to actually what EPA should do as it 
relates to regulating, it no longer follows that paradigm but 
says the Agency should look at the risks, compare them to the 
benefits, and only if the benefits outweigh the risks should 
the Agency regulate. And then there are some other things----
    Mr. Cassidy. If the benefit of regulation outweighs the 
risk?
    Mr. Jones. The health benefits needs to outweigh the cost.
    Mr. Cassidy. So we had something that came up last year, 
and it is the Safe Drinking Water Act bill. But it comes to 
mind where apparently in a previous Congress, lead was not 
allowed in drinking water except when it involved a bidet, 
toilet, or some other device, because the brass fittings there 
have a little bit of lead and they have your bidet apparently 
really sealed tightly. But it didn't allow fire hydrants. And 
EPA put out a rule that they were not going to allow the use or 
I guess the sale or manufacturing of fire hydrants. Now, that 
is kind of like one of those death of commonsense----
    Mr. Jones. Um-hum.
    Mr. Cassidy [continuing]. But EPA rightly said this is the 
statute. It doesn't give us wiggle room. Now, in that case, 
wouldn't it have been nice to have a risk benefit analysis that 
would have said really your exposure of drinking water from a 
fire hydrant or so minimal, et cetera, we can waive this and 
not require literally an act of Congress in order to preserve 
it. Is that a fair----
    Mr. Jones. Well, that is why the administration's 
articulated a view that the standard ought to be risk-based, 
but we should be able to consider costs. Which in the scenario 
you described would have allowed you that wiggle room to do 
something that, on the face of it, it sound like it wasn't the 
smart thing to do, which is very different from actually being 
able to say I have monetized the benefits and they numerically 
outweigh the monetization of the costs. Which in a perfect 
world would make sense, but we rarely have the kind of 
information that really can lead to accurate decisionmaking in 
that context.
    Mr. Cassidy. But how else then do you do it?
    Mr. Jones. If you are able to consider costs in your risk 
management, you can make choices as to whether or not you 
think, as the costs of achieving the ideal level of safety may 
be such that you may not want to get to that level of safety 
but a little bit below that----
    Mr. Shimkus. Would the gentleman yield?
    Mr. Cassidy. Yes.
    Mr. Shimkus. Doesn't the Presidential Executive Order 
require you to do that anyway?
    Mr. Jones. The Executive Order requires us to do cost-
benefit analysis, but--and we do that even in statutes that 
are--have risk only standards----
    Mr. Shimkus. So it is not like a crisis of monumental 
proportions that you do a cost-benefit analysis in evaluating 
risk?
    Mr. Jones. No, but it matters in terms of ultimately the 
judicial review that occurs, which the OMB requirement is 
irrelevant to the judicial review. It is the statute that 
governs that.
    Mr. Shimkus. I would yield back to my colleague. Thank you.
    Mr. Cassidy. And I am sorry. I got all my pages--my staple 
came off, and it is--and my staples are apart. But it did seem 
as if there is a graduated way in which the EPA would be able 
to do some sort of cost-benefit analysis and ultimately--and 
concluding with the total banning of the substance. But I am 
hearing from you that you either don't want that authority or 
that you think you should have the authority. What am I 
hearing?
    Mr. Jones. We don't think that the decision framework 
should be that you have to show that the benefits outweigh the 
costs, as we don't think that the information that we will 
generally have available allows that balancing to be as 
accurate as people would hope it would be.
    Mr. Cassidy. I don't think people are talking about 
scientific precision. I think they are talking about some sort 
of weighing of commonsense.
    Mr. Jones. Courts have generally found that if you can't 
show that the actual dollar value of the human health benefits 
aren't literally bigger than the dollar value of the cost----
    Mr. Cassidy. Can I have a little bit--one extra question? 
So my frustration is obviously this leads to where we are going 
to ban something even though it costs a million dollars to ban 
it, and there is only a buck of--if you totally discharge the 
responsibility for coming up with such a thing--don't want the 
authority, then you actually come into a situation where there 
is the death of commonsense, where you really need to no longer 
sell fire hydrants because we can't quantitate the relative 
exposure. Now, we can't have it both ways. We can't say give 
you a little bit of wiggle room so that we are not banning fire 
hydrants, and on the other hand saying oh, my gosh, we don't 
want that authority because we don't have the ability to pull 
off the analysis.
    Mr. Shimkus. Gentleman----
    Mr. Jones. Well, it is very different from saying I would 
like to be able to consider costs, so I don't do something like 
you just described, versus I have to literally calculate the 
human health benefits, which are nearly impossible to do most 
of the time. And I have to show that that number is bigger than 
the cost, which is usually easily able to calculate but often 
overestimated.
    Mr. Shimkus. The gentleman's time has far exceeded. And I 
know--I hope you will come back for the second panel, which I 
think we'll have a further discussion on this. The Chair now 
recognizes the gentlelady from California for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you, Mr. 
Jones, for your testimony today, for being with us. Many 
stakeholders have raised concerns about the need to protect 
vulnerable populations in any modernized TSCA. It has been a 
point I have made in our previous hearings on this topic. I 
think it is absolutely essential.
    If we reform TSCA but fail to adequately protect children, 
pregnant women or seniors, we have really failed. As you know, 
vulnerable populations include infants and children, the 
elderly, the disabled, the workers and those living near 
chemical facilities. In their 2009 report, Science and 
Decisions, the National Academies of Science recommended that 
all vulnerable populations should receive special attentions at 
all stages of the risk assessment process.
    In its current form, the discussion draft only examines 
potentially exposed subpopulations when evaluating the risk of 
existing chemicals. But the draft does not direct the EPA to 
protect any of these risks when they are identified. It strikes 
me as a glaring oversight.
    Mr. Jones, you previously testified that a chemical should 
not be able to pass the safety standard under reformed TSCA if 
it is dangerous to a vulnerable population. But my 
understanding is that this revised draft does not provide this 
guarantee. Instead, it uses a cost-benefit standard to direct 
EPA to balance the health risks to vulnerable subpopulations 
against the cost to the industry to take protective action. Is 
it your opinion that this is an accurate statement? Or if not, 
would you correct me?
    Mr. Jones. The only modification I would make is that it is 
not just the cost to the industry but any costs to society.
    Mrs. Capps. OK.
    Mr. Jones. Otherwise, I think your characterization is 
accurate.
    Mrs. Capps. OK. So that means if we enact this proposal, we 
couldn't tell parents that the law always puts the health of 
their children first, right?
    Mr. Jones. That is correct.
    Mrs. Capps. Does the administration support this approach, 
or does it think the law should require that children and 
vulnerable populations are protected from toxic chemicals?
    Mr. Jones. We prefer the latter.
    Mrs. Capps. Mr. Chairman, this proposal doesn't make sense 
to me. For the last 40 years, we have had a law that does not 
adequately protect children, seniors, and other vulnerable 
populations. Why would we want to pass another law that simply 
continues that failed approach? And I yield back.
    Mr. Shimkus. The gentlelady yields back her time. Seeing no 
other members present, we want to thank you--oh, no. I am 
sorry. Mr. Bilirakis is now recognized from the State of 
Florida for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. The 
first question, does this section of the April discussion draft 
improve the Agency's ability to require the submission of 
hazard and exposure data and information by authorizing EPA to 
obtain it by rule, consent agreement or issuing an Order?
    Mr. Jones. Section 4 does that, yes.
    Mr. Bilirakis. Say that again.
    Mr. Jones. Section 4 does that, yes.
    Mr. Bilirakis. Very good. Does the expansion of testing 
authority to cover the chemical prioritization process provide 
the Agency sufficient flexibility to obtain additional 
information necessary to take--to make decisions in priorities?
    Mr. Jones. Yes, it does.
    Mr. Bilirakis. OK. Thank you very much. I appreciate--thank 
you. I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back.
    Mr. Tonko. Mr. Chair?
    Mr. Shimkus. The gentleman--for what purpose does the 
gentleman ask recognition?
    Mr. Tonko. Right. If I might, you have mentioned a number 
of times that you would like to see language from our side of 
the aisle. There seems to be an implication that somehow we 
have refused to engage in the process. I just want to clarify 
the record. After you released your discussion draft in March, 
our staff sat down on a bipartisan basis to discuss it. Our 
staff identified 12 areas where we needed to have further 
discussion in order to reach a bipartisan agreement. Staff 
discussed these issues. With many of the issues, your staff 
informed our staff that changes would not be possible. In other 
cases, I am told your staff expressed some receptivity, but 
they did not want to work out language with us. Our staff 
offered to go to legislative counsel with your staff to work 
together on the text, but that offer was refused. So if this is 
a misunderstanding and you would like our staff to work out 
language together, I would suggest we direct them to do so. We 
are happy to engage, and I hope there is sufficient flexibility 
to address the stakeholders' concerns.
    Mr. Shimkus. If the gentleman would yield?
    Mr. Tonko. I will yield.
    Mr. Shimkus. Yes, this has been an interesting process for 
me in that we have worked diligently with members, with staff, 
with full committee staff, sometimes with individual staffs at 
other times. We continue to have asked for language. We have 
not received language. We can go through this process of junior 
high, he said what to who and who is talking to who, and why 
aren't they doing this to the other person? I am telling you, 
it is a tad frustrating. All we are trying to do is drop a 
draft of a bill. We have accepted language. We have moved the 
process forward. We want to continue to do that. We hope that 
you will work with us in that process. But there is a time when 
members need to talk to members. And with all due respect to 
our staff who are very, very smart, if there is a problem with 
this process, then you can walk down the hall. You can pick up 
the phone. We can meet with our staff together, which we have 
done with some members. So we are moving forward. We appreciate 
the help and support. And if there has been frustration, it is 
just this is a very difficult process. Many of us are not 
lawyers. And this thing has not been revised since I was in 
high school. We can do better, and that is all we are trying to 
do.
    Mr. Tonko. Right. And all I am asking is that if there is a 
request to have us sit down and work out language, let us come 
to the table together and get that done. This is much more 
serious than junior high. And if the request for language is 
made, let us come to the common table. They did not--as I am 
told, there was not a receptivity to work out language with us. 
And I am just asking that we come to the table, get that done, 
because time is fleeting.
    Mr. Shimkus. All I have said, I have asked for language for 
two months from the minority staff and have not received any 
language.
    Mr. Tonko. OK.
    Mr. Shimkus. So----
    Mr. Tonko. I was told that that was not the case. So let us 
meet at the table and produce the language.
    Mr. Shimkus. That is the case. And I want to again thank 
Mr. Jones for his time. This is a difficult process. We 
appreciate your testimony, long. And you can see the members 
were well prepared by directed comments, directly to the draft 
bill. We appreciate your forthright answers. We know it is not 
done. It is not perfect. We encourage you and ask you to 
continue to be involved and engaged in this process, because we 
can get to a better product by working together. So with that, 
we would like to dismiss you and we would like to ask for the 
second panel to sit down.
    I think we are going to hire Mr. Dooley to be a good 
staffer. He knows the ropes. If we can get the door closed? 
Again, we want to thank you. Hopefully you have found the first 
panel interesting, educational, enlightening. And we do 
appreciate you coming for this second panel. In the sake of 
time, we want to continue to go forward.
    I will introduce everybody first and then call you 
individually for your opening statements. I think that is, for 
me, the most expeditious way of--from my left to right, we are 
joined by the Honorable Cal Dooley, President and CEO of 
American Chemistry Counsel, former colleague, great friend. And 
we appreciate you being here.
    Dr. Beth Bosley, President, Boron Specialties, on behalf of 
the Society of Chemical Manufacturers and Affiliates. Again, 
thank you for being here.
    Mr. Mark Greenwood, Principal of Greenwood Environmental 
Counsel. Sir, welcome. You have testified before. So we--good 
to see you again.
    Dr. Len Sauers, Vice President of Global Sustainability for 
Proctor & Gamble Company. Again, another familiar face.
    Mr. Steven Goldberg, Vice President and Associate General 
Counsel, Regulatory & Government Affairs for BASF. You have 
also been here before.
    Mr. Andy Igrejas----
    Mr. Igrejas. Igrejas.
    Mr. Shimkus. Igrejas. Oh, you are over there? OK. We have 
got our things mixed up--National Campaign Director of Safer 
Chemicals, Healthy Families. Another familiar face.
    And the Honorable Michael Moore on behalf of the National 
Conference of State Legislators. Sir, welcome. So we will start 
with Mr. Dooley. Your full statement is in the record. You are 
recognized for 5 minutes. And thank you for coming.

  STATEMENTS OF CALVIN DOOLEY, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, AMERICAN CHEMISTRY COUNCIL; BETH BOSLEY, PRESIDENT, 
 BORON SPECIALTIES, LLC, ON BEHALF OF THE SOCIETY OF CHEMICAL 
   MANUFACTURERS AND AFFILIATES; MARK GREENWOOD, PRINCIPAL, 
    GREENWOOD ENVIRONMENTAL COUNSEL, PLLC; LEN SAUERS, VICE 
PRESIDENT, GLOBAL SUSTAINABILITY, PRODUCT SAFETY AND REGULATORY 
AFFAIRS, THE PROCTOR & GAMBLE COMPANY; STEVEN J. GOLDBERG, VICE 
    PRESIDENT AND ASSOCIATE GENERAL COUNSEL, REGULATORY AND 
GOVERNMENT AFFAIRS, BASF CORPORATION; MICHAEL MOORE, ON BEHALF 
  OF THE NATIONAL CONFERENCE OF STATE LEGISLATURES; AND ANDY 
      IGREJAS, DIRECTOR, SAFER CHEMICALS, HEALTHY FAMILIES

                   STATEMENT OF CALVIN DOOLEY

    Mr. Dooley. Thank you, Chairman Shimkus and Ranking Member 
Tonko. Thank you for the opportunity to testify about the 
latest draft of the Chemicals in Commerce Act. The ACC greatly 
appreciates the time and effort that you and your staff have 
devoted to his critical issue. And we believe this draft 
addresses key issues and questions that have been raised by a 
variety of stakeholders, and questions that have been raised by 
a number of members of this committee at the February 27 
hearing on the previous draft.
    You know, I think if you look at some of the modifications 
in this draft, they responded to some of the concerns that 
Member Tonko offered about the preemption of State laws. This 
draft provides for a robust national chemical regulatory 
program, while also maintaining abilities of States to protect 
their citizens when EPA has not acted.
    Unlike the earlier draft, a low priority designation of a 
chemical by EPA will no longer preempt existing State laws. 
Only a final EPA decision after a risk evaluation of a high-
priority chemical will preempt a State regulation or law.
    And, Congressman DeGette, you asked about EPA's testing 
authority. This draft greatly strengthens the EPA's ability to 
demand more data by allowing EPA the demand further testing for 
purposes of prioritization. And this is also a major change 
from the earlier version.
    Our colleague, Congressman Green, asked about TSCA's safety 
standards should be based solely on health and exposure. And 
this draft clarifies that only hazard use and exposure 
considerations may be applied to determine the risk associated 
with an intended use of chemical. Cost benefit considerations 
are only considered in the risk management phase of the 
regulation.
    And, Congressman Capps, who has a great concern about 
vulnerable subpopulations, this draft explicitly requires EPA 
to consider exposures to infants, children, pregnant women, 
workers and the elderly during the prioritization process and 
throughout the risk evaluations.
    And Congressman Pallone has asked about TSCA's current 
requirement to apply the least burdensome option. He mentioned 
that in his questions earlier today. This draft eliminates the 
least burdensome requirements, enhancing EPA's ability to 
efficiently and effectively impose regulations on chemicals.
    This legislation--or draft legislation provides a national 
approach to ensure the safety of chemicals in commerce. It 
empowers EPA to evaluate the risks associated with the exposure 
to a chemical, to determine if the cost--or the risk of 
exposure can be safely managed, and to also assess whether the 
cost and benefits of the restrictions on the use of a chemical 
are in the interest of consumers.
    I think it is instructed to see how the CICA could apply to 
the use of this fluorescent--CFL fluorescent light bulb. This 
light bulb uses about a quarter of the energy and lasts about 
10 times as long as a traditional light bulb. But, you know, 
widespread adoption of CFL's are helping to reduce energy 
demand, reduce carbon emissions and are reducing energy costs 
for consumers. But there is a small amount of mercury that is 
required to make these highly efficient bulbs effective. Under 
CICA, EPA would certainly find mercury to be a high-priority 
chemical based on hazard. EPA then would conduct a risk 
evaluation as to determine whether mercury used in this CFL 
posed a significant risk. Finding that EPA would next consider 
whether the exposure to mercury in this bulb could be managed 
to protect against an unreasonable risk of harm to human health 
and the environment. In EPA's development of regulations on the 
use of mercury in this bulb, they would consider the cost and 
benefits of allowing mercury to be used, and whether there were 
alternatives. This approach is a compelling from a public 
policy perspective as EPA would be ensuring the risk of 
exposure to mercury was acceptable in this bulb, while 
encouraging the development of a product that has significant 
societal and environmental benefits. This example of the CFL 
bulb also demonstrates why preemption provisions of CICA are 
sound public policy.
    Unfortunately, many State regulatory programs are based 
solely on whether a chemical can cause harm in any 
circumstance. This means that if a State--my home State of 
California decided to impose a blanket ban on the use of 
mercury, CFLs could not be sold there. This would have a 
significant negative consequences, and innovators and companies 
throughout the country would be reluctant to invest in the 
development and manufactured of advanced products such as this 
bulb if it was banned in what is the fifth largest economy in 
the world.
    The current draft of the Chemicals in Commerce Act is a 
positive contribution to reforming TSCA, and we believe it 
provides a roadmap to legislation that the American Chemistry 
Counsel can strongly support.
    [The prepared statement of Mr. Dooley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. Time has expired. The Chair now 
recognizes Dr. Bosley for 5 minutes.

                  STATEMENT OF BETH D. BOSLEY

    Mr. Bosley. Thank you, Chairman Shimkus, Ranking Member 
Tonko and members of the subcommittee. I am pleased to be back 
in Washington to share my perspective as a small business owner 
and on behalf of the Society of Chemical Manufacturers and 
Affiliates regarding the April 18 discussion draft of the 
Chemicals in Commerce Act.
    You and your staffs have been doing great work on TSCA 
reform, and TSCA very much appreciates it. I would particularly 
like to thank you for recognizing that TSCA is as much about 
products as it is about health and the environment. It is an 
important interrelationship we need to protect against 
unreasonable risks, but we also need to be able to make--keep 
making the products that make every other aspect of our society 
useful.
    As we work towards strengthening EPA's authority to 
regulate industrial chemicals, we must be careful that it does 
not come at the expense of innovation. This is how we create 
and sustain jobs. It is also how we can develop greener 
chemicals and bolster public confidence.
    You have obtained positive approaches from the February 27 
draft on issues that matter most to SCMA. You have also made 
additional improvements in several other areas. There are some 
aspects of the current draft that concern us, and we would like 
some clarification on those.
    Regarding new chemicals and CBI, timely approval of new 
chemicals and reliable protection of trade secrets are SCMA's 
two top priorities, because they are critical to facilitating 
innovation. And the draft makes some changes to new chemicals 
in commerce--provisions of the bill, but these two sections 
continue to be very, very workable.
    As you continue to deliberate these sections, consider that 
new chemicals do tend to be greener. Note also that if a 
manufacturer does not have test data, EPA will continue to use 
precautionary approaches involving potential exposures, 
modeling tools and data on analog chemicals before a chemical 
ever reaches commerce. If the Agency then still feels like it 
needs measured data, it can request it and often does.
    Finally, companies regularly continue to test chemicals, 
even after EPA approves them.
    Regarding existing chemicals, the new draft contains an 
additional requirement for EPA to review available information 
on a chemical, including any screening level information, 
before requiring testing. We support this change. It only makes 
sense that EPA leverage all the available data and information 
before pursuing potentially burdensome testing regimens.
    Prioritization, repeatedly--or relatedly, the 
prioritization process in the bill now allows EPA to require 
development of additional data to determine whether a substance 
falls into a high-priority bucket in cases where existing 
information is insufficient. This is a great improvement.
    We also believe that enhanced process of reporting is an 
important aspect of any new bill. In the same way EPA can see 
additional toxicity data to prioritize a chemical, we would 
like to see language specifically authorizing the EPA to 
require processors to report use and exposure data for 
particular product categories, especially where commercial or 
consumer uses can be significant. We understand this is a 
challenging issue, but is essential to well informed risk 
evaluations.
    As I have mentioned in prior testimony, the bill should 
also expand TSCA's Section 8(e) to authorize submission of non-
adverse data and to require EPA to take that data into account 
when prioritizing and evaluating chemicals. Presently, Section 
E is biased toward only adverse data, because that is all that 
we can submit. Such an enhancement would greatly increase the 
amount of data submitted under this authority, which can only 
improve the EPA's understanding of chemical hazards.
    Regarding deadlines, SCMA has called for a mandate for EPA 
to remove a minimum number of chemicals, or some percentage of 
chemicals, over time in order to assure that it will act more 
expeditiously on existing chemicals. And it has thus far. While 
the bill does not yet do that, it does include deadlines for 
reviewing existing chemicals. I think the deadlines may be too 
generous in aggregate. It would give EPA a total of up to 10 
years from release of a high-priority determination to issue a 
final rule and posing risk management requirements or 
restriction. I think 4 years for the risk evaluation is 
probably too long. Something like 18 to 24 months should be 
workable.
    We noticed that the phrase in Section 6 and 9 is 
significant risk, and we look forward to understanding your 
intent here. I think it is probably improvement over 
unreasonable risk.
    Risk management now, this bill clearly separates the risk 
evaluation and risk management steps, and it makes even clearer 
the former is purely a health-based standard. We think this is 
good and still leaves the bill with fewer steps than in the 
Senate bill.
    As for the risk management process, we support the bill's 
requirement that restrictions of chemicals be cost effective. 
However, we are concerned that the bill would allow EPA to ban 
a chemical even when it concludes there was no technically or 
economically feasible safer alternative. The draft drops the 
definition of best available science and the concept contains 
there, and they don't appear elsewhere in the bill. We are 
disappointed by this, because the credibility of EPA risk 
evaluations will depend on the strength of the science 
supporting them.
    We are pleased to see that the bill did retain language on 
good science and the requirement that EPA evaluate chemicals by 
weight of that evidence. I would think both sides of the aisle 
would agree that the only--would only defeat our common goal of 
enhancing public confidence if EPA could be accused of cherry-
picking data or methods.
    In conclusion, the bill represents an improvement over the 
status quo and shows continued promise for a bipartisan 
solution. We appreciate your intense focus on TSCA 
reauthorization and remain committed to helping in any way we 
can.
    [The prepared statement of Ms. Bosley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. Mr. Greenwood, you are 
recognized for 5 minutes.

                  STATEMENT OF MARK GREENWOOD

    Mr. Greenwood. Chairman Shimkus, Ranking Member Tonko, 
members of the committee, thank you for the opportunity to 
testify today. I am Mark Greenwood. I am an environmental 
lawyer. I have been working on TSCA for over 25 years. As part 
of that, I was the chief lawyer for the TSCA program from 1988 
to 1990. I was director of the Office of Pollution Prevention 
Toxics from 1994, and advised clients on these issues for over 
20 years.
    What I would like to do is offer some comments of the 
strengths of this bill in the context of some of the historical 
issues that have occurred in the TSCA program. And I really 
would like to respond to something that I think is a fairly 
puzzling characterization I have heard that somehow this 
discussion draft is worse than the current law. And just as 
kind of a reality check and--I thought I would reflect back on 
1990 when I started as an office director at EPA. And if they 
could have given me a choice between the law that was there on 
the books, which by the way is the law we have today, and this 
discussion draft, which would I have preferred to do the best 
job I could to protect the American people from chemical risk? 
I found it very easy. I would select the discussion draft.
    It has in it key elements that will increase the 
protection, the ability of EPA to act in ways that I think are 
extremely important. I have documented those in my written 
testimony. I will highlight just a couple of points in the 
interest of brevity.
    For Section 6, which we know is the centerpiece of the 
existing chemical program, as others have mentioned, your draft 
removes the least burdensome requirement provision. That was 
the most difficult problem that came out of the asbestos 
corrosion proof fitting decision. You have removed it. It 
removes the specter of that decision from the program.
    A second one that is very important is prioritization. One 
of the curses that TSCA is that is has always been the statute, 
particularly in Section 6, that can do anything but has a 
mandate to do nothing. And that has been a problem 
institutionally. EPA and the TSCA program has always had 
problem getting more resources for the program. It has had a 
problem getting its regulations through the review process. We 
often saw the phenomenon which I experience several times when 
new political leaders would come into EPA, they look at this 
wonderful new tool and say this can be used for this special 
project. And that special project then disappeared when they 
left. And the career people at EPA were left with another 
failed project.
    I think what happens with this prioritization system is it 
creates a system that legitimizes the establishment of a long-
term agenda for this program, which it desperately needs, and 
allows the program to have a sustained effort to implement that 
agenda.
    The third thing which I think you have added, which is an 
improvement over other drafts, is this distinction in the 
safety standard/now risk evaluation and risk management 
provisions to distinguish what you call a significant risk and 
an unreasonable risk. And what is important there is probably 
less the specific words of the standard than the fact that you 
articulate the considerations that go into that decision. And 
they are very distinct. So you do have a significant risk 
decision that looks solely at health and environmental factors, 
and explicitly says that costs and benefits are not part of 
that decision. And I thank you for Jim Jones recognized that 
that is an important change.
    Similarly, in the risk management area, you have tried to 
clarify what factors should be considered. Previously, there 
was some overlapping factors that you have taken out. I think 
it is a big improvement.
    The second area I want to address is actually confidential 
business information, which has often been identified as a 
systematic problem with TSCA. Now, this perception I think 
unfortunately can be traced back to some events that occurred 
during my tenure at EPA. Back in 1990, we decided to create a 
new strategy for the program in which we tried to, as we said, 
go public with the information that we had about health and 
environmental risks of chemicals. It was very much aligned 
with--at that time with the public right to know programs. We 
were in charge of the toxic release inventory. And we thought 
that was a good thing to do. Now, in going on and doing this, I 
am afraid we kind of stirred a rather serious debate. And we 
have had a debate on CBI reforms and CBI changes, which have 
gone on for many years. It was not productive. It was very 
polarized. The debate was not very well explained. However, a 
group of people working on this bill, in the Senate and in the 
House, have come together. NGO groups are involved. Industry 
was involved, to come up with some commonsense reforms which I 
think, as a package, have really advanced this debate, and I 
think can resolve a lot of the issues that have plagued the 
program for over 20 years. So in a sense, you had a guerilla 
war for the last 20 years on this topic. And you have the 
ability in enacting this to perhaps ratify the TSCA CBI treaty 
of 2014 and resolve this war. And that has got to be a success 
story in any case.
    Thank you for your time.
    [The prepared statement Mr. Greenwood follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shimkus. I thank you. And now, I would like to 
recognize Dr. Sauers for 5 minutes.

                    STATEMENT OF LEN SAUERS

    Mr. Sauers. Um-hum. Chairman Shimkus, Ranking Member Tonko, 
members of the subcommittee, thank you for inviting me to 
testify today. My name is Len Sauers. I am Vice President of 
Global Sustainability, Product Safety and Regulatory Affairs at 
the Proctor & Gamble Company. P&G is the largest consumer 
products company in the world. And our products are used by 
more than 4.8 billion people worldwide. Ninety-nine percent of 
American households contain at least one P&G product.
    Since our founding in 1837, innovation has been integral to 
everything we do and critical to our success. At P&G, we 
believe innovation is our lifeblood. I congratulate and thank 
the subcommittee for continued bipartisan collaboration to 
further refine and improve the draft legislation. We firmly 
believe that any legislative effort to modernize TSCA must have 
a strong foundation built on common ground from a broad range 
of stakeholder interests.
    The time for action is now. A strong and effective Federal 
chemical management program will lessen pressure on States or 
markets to independently take action to regulate chemicals. 
Enhancing consumer confidence is P&G's single most important 
objective for modernizing TSCA. We recognize and hear from our 
consumers that they are concerned about chemicals used in 
everyday products. We believe a modernized TSCA will strengthen 
public confidence in EPA's oversight of the safety of chemicals 
used in the everyday products that consumers bring into their 
homes and use around their families.
    The latest discussion draft makes some very important 
improvements over the current statute. For example, CICA 
requires EPA to identify and account for active chemicals in 
U.S. commerce, and then apply transparent criteria to 
prioritize them. CICA instructs EPA to conduct a risk 
evaluation of high-priority chemicals to examine their probable 
or demonstrated harm to humans or the environment, with 
attention given to the most vulnerable subpopulations 
potentially exposed by these priority chemicals. CICA 
expressively prohibits EPA from considering economic costs and 
benefits in their risk evaluation for priority chemicals, which 
is a noted improvement over the earlier discussion draft and 
acknowledges the common ground reached by industry and NGO 
stakeholders that a new safety standard in a modernized TSCA 
should be health-based only.
    EPA subsequent regulatory actions must impose requirements 
or restrictions that sufficiently and effectively manage the 
risk, while carefully evaluating practical consideration to 
assure market benefit and continuity. And importantly, CICA 
offers new authority for EPA to collect additional information 
on chemicals in commerce when such information is most useful 
to the Agency in decisionmaking.
    Another important element of the proposed CICA act is 
support for innovation through protection of confidential 
business information. Proctor & Gamble invests $2 billion 
annually in research and development. It is 60 percent more 
than our next closes competitor, and more than most of our 
competitors combined. Once we bring new products to market, we 
have significant interest in protecting our confidential 
business information from public disclosure to our competitors. 
Appropriate protections for confidential information allow 
innovative companies to succeed, and for P&G to earn our 
consumers trust and loyalty. We rely heavily on the protection 
of confidential business information afforded by Section 14 of 
TSCA to remain competitive.
    We recognize that EPA has to carefully balance the 
protection of confidential business information under TSCA, 
with providing public access to health and safety information. 
P&G fully supports transparency with health and safety 
information, and the disclosure of confidential information to 
States and medical professionals to assist with the diagnosis 
and treatment of illnesses. The discussion draft appropriately 
authorizes EPA to disclose such information.
    We also strongly support provisions to the discussion draft 
that provide adequate protection for confidential chemical 
identities, even when associated with a health and safety 
study. A specific confidential chemical identity is not needed 
to conduct a health and safety study, interpret its results, or 
communicate the study's observed health effects and conclusion. 
Structurally descriptive, generic chemical names are sufficient 
to provide the public with information about the structure of 
the chemical and its hazard profile, which in turn provides a 
linkage and access to publicly available scientific and 
toxicological literature on structurally related materials.
    In our industry, confidential chemical entities are often 
the most valuable type of intellectual property. Disclosure of 
a specific confidential chemical entity can provide watchful 
competitors with clues needed to replicate our product 
formulations. P&G agrees with other industry stakeholders that 
CBI protection must be properly substantiated at the time of 
the initial claim, and upon EPA request to renew or extend the 
duration of protection. We support the CICA provisions that 
address the need for upfront substantiation of CBI claims for 
confidential chemical identities and encourage the authors to 
consider broadening the requirement.
    Mr. Chairman, Ranking Member Tonko, thank you again for the 
invitation to testify this morning. We believe the time to 
modernize TSCA is now.
    [The prepared statement of Mr. Sauers follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. Now, the Chair now recognizes Mr. 
Goldberg for 5 minutes.

                STATEMENT OF STEVEN J. GOLDBERG

    Mr. Goldberg. Thank you. Chairman Shimkus, Ranking----
    Mr. Shimkus. I think there should be a button for that.
    Mr. Goldberg. Chairman Shimkus, Ranking Member Tonko, 
members of the subcommittee, thank you for this opportunity. I 
am Steve Goldberg, Vice President and Associate General Counsel 
for Regulatory & Government Affairs at BASF Corporation. BASF 
Corporation is the North American arm of BSF Group, which is 
the world's largest chemical company.
    BASF Corporation supports modernization of TSCA. We believe 
substantial progress has been made towards that goal by the 
most recent draft of the Chemicals in Commerce Act. And we 
appreciate the subcommittee's focus on this important matter, 
and are grateful for the opportunity here before you--appear 
before you today.
    A number of key principles and concepts for TSCA 
modernization are the subject of agreement among a wide variety 
of stakeholders, including the fact that TSCA should provide 
for additional authority for EPA to review and manage risks 
from existing chemicals on the market as it has successfully 
done for new chemicals since TSCA's inception. A prioritization 
process is an appropriate way for EPA to commence reviewing 
existing chemicals in order to ensure its resources are spent 
in the most efficient way.
    EPA requires additional authority to call for testing of 
chemicals where existing data is insufficient to permit 
reasoned conclusions either as to priority status or to make 
risk assessments. And the appropriate approach for a safety 
assessment of chemicals is a risk-based standard that is one 
that takes into account not just hazards but also exposure and 
use in order to leave to safety conclusions.
    And while I am not testifying on their behalf today, while 
I participate in the chemical management teams at American 
Chemistry Counsel, I also do so at the leading downstream 
associations, the American Cleaning Institute, Consumer 
Specialty Products Association. And those associations are 
committed to participating in this process to provide 
appropriate use data so that the standard can be risk-based, 
not just hazard-based.
    The benefit and cost considerations are not appropriate 
when making a safety assessment, but are critical in deciding 
the appropriateness of risk management measures. As discussed, 
there should be appropriate protections for CBI. And, finally, 
EPA will require sufficient resources to be able to fulfill its 
mandate in a timely manner under a modernized TSCA.
    While provisions in the proposed bill on use exposure data 
and resource needs require some fleshing out, overall we are 
pleased that the updated CICA is directed towards meeting these 
principles and is a substantial improvement over current law. 
While all these subjects are important, I want to focus on the 
subject raised by Mr. Dingell, and that is the issue of 
resources.
    Ultimately, one key to success of a modernized TSCA is 
ensuring that EPA has the resources to do its job. And there 
was extensive discussion about how many chemicals it could 
review and what sort of time period. Ultimately, a program that 
provides EPA the authority but not the resources to do that job 
is a losing proposition for the chemical industry, our 
customers and the public. And so the program posited by the 
CICA clearly will require additional resources in EPA's Office 
of Pollution Prevention and Toxics to allow this program to 
work.
    Having been extensively involved in development and 
implementation of a pesticide fee system under the Pesticide 
Registration Improvement Act, which has been in place at EPA 
for about 10 years, I can provide some perspective on the 
possible application of a fees approach as part of increasing 
the resources for EPA to meet the needs of the program. And 
those feed provisions generally revolve around a number of, 
again, commonly held principles. That is fees charged must be 
dedicated to the program itself, not to the general treasury or 
other programs within EPA. And those fees generally should go 
for adding FTEs within EPA. Fees need to supplement not replace 
appropriations for the functions of chemical safety review. 
They need to be reasonable in amount and such that will not 
stifle innovation, which is critical to our industry. A fee 
should be focused on activities that provide a direct benefit 
to the person being charged. A fee system needs to take into 
account small business considerations. And, lastly, the Agency 
needs to be accountable and transparent about how those fees 
are being used.
    Ultimately, while PRIA provides some direction for possible 
approaches towards meeting resource needs in the chemicals 
area, it is a somewhat imperfect model. It is a different type 
of statute. It is a product registration statute instead of a 
substance statute, as more fully noted in my written testimony. 
However, there are some models I think that will help.
    So while there are things to be learned from the experience 
with PRIA, ultimately a fee program for chemicals needs to be 
based on any processes called for in TSCA and under the CICA, 
and requirements of a chemical management system.
    Industry is prepared to discuss the need for additional 
fees in this particular context, if it meets those principles I 
enunciated. And BASF stands ready to help inform Congress' 
consideration of the resource needs of the Agency, including 
appropriate fee approaches.
    And we thank you very much for your consideration.
    [The prepared statement of Mr. Goldberg follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. All right. Thank you for attending. And the 
business community obviously represents their customers. It is 
great to have a State senator here who has constituents. I 
think there is obviously members, who are legislators also, 
have great respect for anyone who puts their hat in the ring 
and runs for political office. So I would like to recognize 
Senator Michael Moore from the Commonwealth of Massachusetts. 
And you are recognized for 5 minutes.

                   STATEMENT OF MICHAEL MOORE

    Mr. Moore. Thank you very much. And it is an honor to be 
here today. Chairman Shimkus and Ranking Member Tonko and 
distinguished members of the subcommittee, as a member of the 
Massachusetts State Senate and a member of the National 
Conference of State Legislators, I speak today on behalf of the 
NCSL, a bipartisan organization representing 50 State 
legislators and the legislators of our Nation's commonwealths, 
territories and the District of Columbia. I thank you for the 
opportunity to testify today.
    Mr. Chairman, while the NCSL encourages Congress to reform 
and modernize TSCA, we must insist that any changes do not 
eliminate States' abilities to protect the health and safety of 
their citizens through sweeping Federal preemption. CICA 
preempts nearly 40 years of State policy in an attempt to 
provide a one-size fits all approach to toxic chemicals 
regulation. To strip States' residents of protections enacted 
by their elected officials would be a serious breach of State 
sovereignty and will leave everyone more susceptible to 
increased harm from toxic chemicals.
    CICA would essentially eliminate the ability of State 
policymakers to regulate toxic chemicals at the State level by 
divesting all authority away from States and localities and 
placing this authority solely with the EPA administrator. This 
approach may have adverse effects on State regulatory 
structures, which I detailed in my written testimony.
    CICA may also have unintended and adverse consequences that 
extend into the other areas of State environmental regulation. 
Air and water quality in States like New York may suffer 
because of current language does not explicitly exempt State 
pollution laws. In the absence of Federal action to address 
issues related to TSCA, lack of--TSCA's lack of revision, half 
of the States, including the Commonwealth of Massachusetts, 
have enacted legislation to regulate individual chemicals. 
Nearly one-third of States, including Massachusetts, have 
developed comprehensive State chemical regulations. The CICA 
would preempt all of these laws. I have attached a chart 
detailing the laws adversely impacted by CICA with my written 
testimony.
    Throughout my career in public service, I have seen the 
benefits of State and Federal chemical policy firsthand. As a 
State environmental police officer, I worked under the office 
of the State attorney general's environmental strike force to 
investigate crimes associated with illegal chemical practices. 
The State plays a vital enforcement role in chemical incidents 
as the primary investigatory authority in these matters, often 
coordinating with several Federal and State organizations to 
ensure a safe and efficient response. For 18 years, I 
investigated serious violations of State law that had 
significant impacts on local communities.
    In 1993, I was involved with a case in which a metal 
manufacturing plant failed to use standard procedures when 
disposing of residual sodium, resulting in an explosion. Beyond 
these basic failures, fire fighters responding to the blaze 
were significantly injured due to inexcusable mistakes. This 
included a failure to warn responding officers about the 
current state of the involved chemical, which explodes upon 
contact with water. When firefighters began routine containment 
procedures, a larger explosion occurred and several were 
critically burned through their protective gear by the reacting 
chemical. Through the Attorney General's strike force, 
Massachusetts was able to hold the responsible party 
accountable and bring justice to those injured in the incident.
    Without State participation, enforcement of a chemical 
policy would be nearly impossible. But current CICA language 
would drastically hinder State enforcement. By eliminating 
State ability to enforce laws that are comparable to the 
Federal standards, the responsibility of holding violators 
responsible would fall primarily on the Federal Government. 
States embrace the opportunity to provide an improved safety 
for their residents and the environment and accept this burden. 
But preemption language in CICA significantly endangers the--
that enforcement ability.
    When I became a State legislator, it became more apparent 
how intricately States must be involved in chemical policy. 
The--TSCA has not been updated for nearly 40 years, and States 
have acted to pass laws that complement the Federal policy. All 
of these State laws would pass with the welfare of the public 
in mind. Beyond the host of Massachusetts' law that provides 
increased protection from toxic chemicals, several communities 
in my district are currently experiencing difficulties in costs 
associated with Federal preemption of railroad operations. That 
really adds--I commend the subcommittee for their commitment to 
business and interstate commerce in this draft, and understand 
the motivations for a uniform Federal chemical policy to 
promote these goals. However, the advancements of these ideas 
cannot come at the expense of public and environmental safety. 
I share the residents' belief that approximately--I share the 
residents' belief that live on the other side to the potential 
spills--to the potential problems of spills entitles them to a 
measure of involvement in ensuring chemical safety. When 100 
gallons of a chemical called Styrene, used in the manufacturing 
of Styrofoam, was spilled in one of these preempted yards, a 
cooperated effort of rail yard employees and workers from State 
municipal agencies were responsible for the cleanup. The 
incident was handled safely and professionally by all involved 
parties with only minor complaints of irritated eyes and 
lingering smells. However, if a rail yard is federally 
preempted from State law, and chemicals being transported are 
preempted, the citizens of these communities have no recourse 
to protect their homes and families from future spills. There 
must be a balance struck between the benefits of interstate 
commerce and the need for public safety. State legislators have 
and must continue to play a role in chemical policy in order to 
reach that balance.
    The NCSL encourages Congress to reform and modernize TSCA, 
but does not believe that the CICA adequately accomplishes this 
goal. At a minimum, the NCSL believes proposes TSCA reform 
legislation should embody the elements outlined in the NCSL's 
Federal Chemical Policy Reform directive, which is attached to 
my written testimony. Most notably, any reform of TSCA should 
preserve State rights to manage chemicals and resources, and 
should be provided for the State level implementation.
    And I thank you for this opportunity and look forward to 
any questions.
    [The prepared statement of Mr. Moore follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. And now, I would like to recognize 
Mr. Igrejas for 5 minutes.

                   STATEMENT OF ANDY IGREJAS

    Mr. Igrejas. Thank you very much, Mr. Chairman. Safer 
Chemicals, Healthy Families is a nonpartisan coalition of 
health, environmental labor organizations and businesses. We 
came together to do TSCA reform in a meaningful way, and we 
remain committed to that. I appreciate the opportunity to 
testify. And I especially appreciate the process you followed 
of having discussion drafts before going forward with a formal 
bill. And I want to use the opportunity to encourage a 
different course before you do that.
    We took this very seriously. We had a team of experts 
review the new draft. And we did note improvements. So I want 
to point them out so you don't have to do it for me. The 
testing authority is an improvement. The getting rid of the 
best available science definitions, the definitions of adequate 
information, et cetera. But we were still unanimous in our 
analysis that the improvements don't alter the bottom line, 
which is that when you take the ambitious preemption in the 
bill--the sweeping preemption, with the things that have rolled 
back pieces of Federal law, and then the fact that the things 
that I believe you intend as improvements in the bill, are 
still not there in our analysis. The net effect is to go 
backward. That is what we--that is our analysis of the bill 
still.
    The first question we asked our self, will the EPA be able 
to impose restrictions on unsafe chemicals under the bill? And 
we came to the same conclusion that Jim did, that even though 
you have separated the assessment from the decision on risk 
management, the bottom line there is still that EPA has to 
prove something, too much like what it has to prove now, which 
has been shown to be unworkable, in order to impose the 
restrictions needed to ensure safety. And I hope you will agree 
that is a threshold issue that we have to solve, and I think we 
want people outside of the chemical industry concurring that it 
has been solved before we go forward.
    The second questions is does the bill establish a clear 
idea of safety that we can all be sure will protect pregnant 
women and children? And I think our answer again was no. I did 
want to credit that the assessment is now clearly health-based, 
and there is a foothold for some key concepts like vulnerable 
populations, aggregate exposure, et cetera. But they are not 
lined up in a way that assures the protection for pregnant 
women and children. And this term significant risk, which may 
turn out to be an improvement or something that we can work 
with, it is still unclear what that means. And we want to make 
sure it is clear.
    The third question was does it improve or diminish the 
oversight of new chemicals? And this is where we are still 
perplexed over all that--our position, and I think most 
people's sense, is that new chemicals should be made to be 
safe--shown to be safe before they get on the market. That is 
the administration's principles. It is how a lot of people when 
they first get into this issue, they think chemicals work like 
drugs, and they are surprised that it doesn't work that way, 
and they think it should work that way. But we were--and the 
chemical industry has always said the new chemicals program, as 
it is, works fine. But we do see some rollbacks in that 
authority here.
    They have limited authority to--and criteria whereby they 
can order development information and pose some risk 
management. And the new draft restores one of those, but still 
takes back a couple of those pieces of authority. We would like 
to see that removed.
    We also asked will this increase the transparency and 
public confidence, which is a goal that has been even unstated, 
the industry is has enunciated. And our answer was no, again. I 
think the draft adds a layer of murkiness. And this has come 
up. For the first time, you explicitly allow the delinking--or 
require really the delinking of a chemical from the health and 
safety study--the chemical identity from a health and safety 
study that might implicate it as having health concerns. And 
that really does mean you could have a secret carcinogen on the 
inventory. That would be very hard for the public to track, is 
this being managed well? And I think the idea of public 
confidence is that when chemicals do have problems, we can see 
how they are being managed. And so that is going to be 
something that will undermine transparency.
    The low priority designation, if it worked the way it was 
reference by one of the members, I forget if it was Mr. Latta, 
that it was just in ordering, what EPA is going to get to 
later. But because of the remaining links preemption here that 
it is not just EPA saying we are not going to look at this now, 
but we are going to prohibit States from looking at it in the 
future. All on the basis of this likely to be safe, as opposed 
to that they found it to be safe, I think that that would be 
interpreted by many in the industry as basically a hall pass 
that people will want that. This is sort of a promise this 
chemical will never get looked at. And the first time something 
bad ends up somewhere that we don't want it, we are going to 
have a scandal. And the credibility of the whole program I 
think, and what the safety means, will come down. The 
preemption has been discussed in some detail. We agree with the 
comments that it is sweeping and overly ambitious. And so we 
would urge a different approach in the bill.
    I have engaged in a lot of dialog with people in industry 
on a lot of these issues. Part of our reaction is that we don't 
see a lot of what I had seen as ideas that have come out with--
for more common ground approaches reflected in these drafts. 
And perhaps it is time to focus in on some key issues. And I 
think those would be is there a definition of safety that we 
can all understand and get behind, and not just my coalition 
but the folks in the medical community, the pediatricians, 
others that have weighed in on that subject. Is there clear 
authority that everyone agrees the EPA would have to impose 
conditions needed to ensure safety? Is there a schedule and 
resources that we know are making meaningful progress at the 
Federal level? And maybe that would be, you know, good for 
government work right there. Some real progress, but nothing 
that goes backwards. That is what we would be looking for.
    So I would encourage that approach, Mr. Chairman. And thank 
you very much.
    [The prepared statement of Mr. Igrejas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Appreciate your testimony. And, again, we 
welcome all our panelists. And I recognize myself for the first 
5 minutes for questions.
    I guess I would like to start with this cost-benefit 
analysis that Mr. Jones had testified briefly on, and that 
whole discussion near the end of the first panel, and offer 
anyone a chance to make a comment on it.
    Mr. Greenwood, you look like you are ready to do that.
    Mr. Greenwood. Well, one of the things actually I mentioned 
in my testimony was when you talk about cost-benefit analysis 
and this unreasonable risk standard and what it means, I think 
it is useful to consider the fact that just a month ago, EPA 
proposed a new rule. This is under the FIFRA Statute for 
pesticides, but it is under an unreasonable adverse effects in 
the environment standard, very similar to unreasonable risk 
standard--proposed a set of very protective new standards for 
farmworkers, and explicitly indicated that this is to deal with 
some very serious effects on farmworkers, their families, on--
to address the issues in environmental justice, and articulated 
this as part of the unreasonable risk standard. These are 
legitimate qualitative factors to consider. There was a cost-
benefit analysis done.
    Interestingly enough, the cost-benefit analysis showed that 
if you purely look at the monetized costs and benefits, 
actually the regulation--the cost exceeded the monetized 
benefits. However, the government decided that because of the 
qualitative benefits, which can be considered in cost-benefit 
analysis, this was a justified rule, and it was a rule that met 
the unreasonable risk standard. So I think we have to be very 
careful, assuming that the mere existence of a cost-benefit 
analysis or unreasonable risk necessary leads to a less 
protective set of standards.
    Mr. Shimkus. Mr. Dooley?
    Mr. Dooley. If I can just add on to that? And that is--I 
use the example of the mercury in the light bulb. You know, if 
you didn't have a cost-benefit analysis that considered, you 
know, the societal benefits, the environmental benefits, you 
could well have this product never brought to market. And I, 
you know, find it a little bit frustrating with Mr. Jones' 
testimony is that when he cited the EPA's principles, and even 
in his written testimony, he makes a very clear statement that 
they--for when chemicals do not meet the safety standard, they 
need to have the flexibility to consider children's health, 
economic costs, social benefits and equity concerns. They are 
saying that you need a cost-benefit analysis. That is 
consistent with President Clinton's Executive Order. It is 
consistent with President Obama's Executive Order. And it is 
consistent with the language in your discussion draft on page 
45, which states ``determine whether technically and 
economically feasible alternatives that benefit human health or 
the environment, compared to the use proposed to be prohibited 
or substantially prevented, will be reasonably available.''
    This comment that Mr. Jones had that you have to weigh one 
alternative to another is not embodied in the draft legislation 
that you have presented to this committee.
    Mr. Shimkus. Thank you. Let me move on. I will never get 
through all the questions. But for the Senator, does this 
bill--and CERCLA is our Superfund Federal legislation, CERCLA 
and Superfund are two Federal pieces of legislation--does this 
bill exempt any of CERCLA and Superfund from regulation? 
Because--why I say that is, in your comments about spills, that 
is all under CERCLA. And that is all under Superfund and 
remediation and the like. So my point is, those things aren't 
going to be exempted under this piece of legislation. And it is 
an apples and oranges comparison. And I just wanted to----
    Mr. Moore. That comparison may be--I would have to go back 
and research whether the Superfund and CERCLA is. But, 
actually, as my panelists--fellow panelist up here just 
presented the fluorescent light. Massachusetts actually just 
passed a recent mercury ban. So the question is in 
Massachusetts, would this----
    Mr. Shimkus. Yes. So no fluorescent light bulbs in 
Massachusetts?
    Mr. Moore. Oh, no. We have fluorescent light bulbs.
    Mr. Shimkus. But there is mercury in there?
    Mr. Moore. Right. But there is a mercury ban that has been 
in place. And the Massachusetts law regarding the mercury ban 
would actually be preempted. So that is a law that 
Massachusetts actually passed that you preempted.
    Mr. Shimkus. OK. Well, thanks. Now, I have lost all control 
over the direction I was going to go. Let me move to Mr. 
Greenwood. Some of the people involved in this debate have 
strong feelings about Federal preemption. We just started 
talking about that. Why is it important to address preemption, 
and do you think the discussion draft takes the right task?
    Mr. Greenwood. Well, I think it is very important to 
address preemption. And I--but I would say it in the following 
way. It is important because that I think it is an increasingly 
important issue that needs to be teed up, actually for 
international purposes. And here is the context. Obviously, the 
United States, we get nervous about anything that goes to 
preemption, because it goes to key principles of the history of 
our country. But in the world of chemical management across the 
world today, we are facing a series of different kinds of 
controls from other parts of the world. There is a--we want to 
have at some point some kind of consistency of standards across 
borders. Obviously, within the country. But more and more the 
threat of making that very hard to do is the fact that we have 
countries around the world with their own chemical programs.
    In the case of Europe, we have got a set of standards in 
reach that cover a continent. And if you are going to try to 
advance the interest of the United States and engage with the 
other parts of the world as your trading partners, you have to 
have a consistent position. The ticket for entry in that 
discussion is one country, one voice. You have to be able to 
say we are here as the United States with our position in 
dealing with other countries and with European community. And 
our trading partners don't not want to negotiate with the 
individual States in the United States. They are expecting the 
Federal Government to speak for the country.
    So at some point, one of the things that needs to be 
considered here is how preemption or other mechanisms that try 
to get people, the State regulators and the Federal regulators, 
on the same page for purposes of these discussions will factor 
into how TSCA is designed.
    Mr. Shimkus. Yes. And I appreciate. My time is far expired. 
And I would like to now turn to Mr. Tonko, the ranking member, 
for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Earlier, EPA told us that the discussion draft fails to 
address some key elements of meaningful chemical safety reform, 
and in some way weakens current--in some ways, weakens current 
Federal law. That alone should give us pause. But the bill also 
includes sweeping preemption of State and local laws.
    Essentially, the bill completely ties the hands of State 
and local regulators to protect human health and the 
environment from toxic chemicals in commerce.
    Senator Moore, I would like to explore the potential 
impacts of this preemption language with you. In your 
testimony, you mentioned that the State of Massachusetts--the 
Commonwealth of Massachusetts has passed several toxics use 
reduction laws, including a comprehensive chemicals management 
program requiring companies to develop a plan for pollution 
prevention. Why did Massachusetts develop this program, and 
were the Federal programs inadequate?
    Mr. Moore. Well, obviously in Massachusetts, we are looking 
at the needs of our--we determine to be the needs of our 
commonwealth, and what we determined are going to protect the 
welfare and the safety of our citizens, and protect the 
environment. So we are looking at our State and how we think we 
should move forward in a comprehensive process of addressing 
chemical use.
    Mr. Tonko. So does that suggest the Federal programs were 
inadequate?
    Mr. Moore. I don't want to say inadequate, but I think 
everyone can admit that the EPA is--with the amount of work 
that they have to do, they are overtasked. There is a lot of 
responsibility put upon them. And from previous testimony, 
what, there is 80--84,000 chemicals that right now have not 
been analyzed or looked at by the EPA.
    Mr. Tonko. Has this program helped reduce toxic chemical 
use in your home State?
    Mr. Moore. Yes. Yes, I don't have the exact figures. But I 
can tell you it has reduced toxic chemical use.
    Mr. Tonko. And Section 17 of the discussion draft contains 
extremely broad language that preempts States from implementing 
laws and regulations that require the collection of information 
about chemical substances, or that restrict or prohibit the use 
and manufacture of those chemical substances. Senator Moore, 
how could this language affect your ability as a State 
legislator to serve your constituents?
    Mr. Moore. Well, I think if we are going to be looking at 
State laws to protect the welfare of our citizens and the 
environment, and looking for our State regulatory agencies, 
Department of Environment Protection, I think having access to 
information is going to help up develop policies or State laws 
and regulations that are going to adequately support that need.
    Mr. Tonko. In addition to preempting existing State law, 
Section 17 of the discussion draft preempts State and local 
governments from passing new laws in the future to protect 
human health and the environment from toxic chemicals in 
commerce. That is putting a lot of faith in success of our 
Federal program. Senator Moore, are you confident that the 
Federal program envisioned by this bill would be sufficient to 
protect human health and the environment from toxic chemicals?
    Mr. Moore. From what I know of the legislation, at this 
point, I wouldn't not say so. Again, I--the concerns I have is 
that there are a lot of responsibilities put upon the 
Environmental Protection Agency from reviewing new chemicals to 
reviewing existing chemicals. I don't know what the resources 
that they would have to actually adequately perform this 
function.
    Mr. Tonko. So then how do you see this as best working? 
What role should the State play, and what role should the 
Federal Government play?
    Mr. Moore. I think they should work hand in hand. As 
discussed, I think government and business should work hand in 
hand in the promoting of interstate commerce, the promoting of 
business. I think the Federal Government and State government 
should work hand in hand, working off each other's best 
practices and moving those initiatives forward. I don't think 
any one entity can do it alone. This is--I know the panel has 
said that, you know, when you are dealing on international 
trade issues that they want to know what the policies of the 
Federal Government. Well, State government also has--when we go 
abroad on trade issues, they want to know what State issues are 
being put forth. And we--in conjunction, we have to work with 
our Federal partners. But we are not always putting--States are 
not always putting forward the initiatives being sought by the 
Federal Government. So there is different initiatives that each 
State are going to be looking at.
    Mr. Tonko. Well, I appreciate your testimony and that of 
the panelists. I agree that the best model is one that sets a 
strong Federal minimum standards, but allows our States to 
enact standards that respond to local needs and go above and 
beyond Federal law to protect human health and the environment.
    And with that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Thank you very much, Mr. Chairman. And thanks 
very much to our panelists for being here today. We really 
appreciate your time and your presentations.
    Dr. Sauers, if I could start with a question to you. With 
TSCA regulating chemicals and of course, in the U.S. commerce, 
many of which become ingredients in consumer products, are 
there other departments and agencies out there that have 
authority over the safety of those packaged consumer products 
that are used in the home? And if so, would you explain the 
role of those other U.S. departments and agencies, and how that 
regulatory jurisdiction compares to what we are discussing for 
the EPA under TSCA?
    Mr. Sauers. Um-hum. Yes, Congressman, thank you. The 
Proctor & Gamble Company makes a whole host of consumer 
products. We make drugs, food products, beauty care products, 
laundry detergents, things like that. And different agencies 
regulate different products. So if I think of our food 
products, beauty care products, cosmetics, drugs, those are 
regulated by the FDA. So chemicals that go into those products 
that are solely used in those products would not be regulated 
by TSCA. They are regulated by the FDA.
    Now, for those chemicals that go into say laundry 
detergents where the EPA would have a jurisdiction and would 
regulate those chemicals, the use of the chemical in the 
finished product is regulated by the Consumer Products Safety 
Commission. And they are the ones that regulate the use of 
hazardous chemicals in those products. So if something were to 
be declared say toxic, you know, by EPA, it would probably fall 
within the definition of hazardous within the Federal Hazardous 
Substances Act, which the CPSC administers. And then the CPSC 
would then have a jurisdiction for labeling on the product, 
banning the use of the material. You know, if the felt that 
labeling could not ensure safe use of it for a consumer, they 
could ban the use of it there.
    So there is a whole host of regulatory agencies overseeing 
these things.
    Mr. Latta. Well, let me follow-up. Suppose if the EPA 
determines a chemical as a low priority. And as set aside under 
TSCA based on the EPA's knowledge of the chemical's limited use 
in the industrial environment, and that chemical may have 
significant hazardous properties, but the EPA understands there 
is a limited exposure to the chemical and the exposure is well 
managed by occupational controls, would prevent a consumer 
product manager, like yours, from using that low priority 
chemical in an everyday product used by families in the home?
    Mr. Sauers. Um-hum. If it was a chemical that was regulated 
by TSCA, then the Consumer Products Safety Commission would 
come into effect with its use in a finished product. And if it 
indeed was say a low priority chemical for which there was 
toxicity associated with--you know, a toxic--a potential--it 
would then be declared as hazardous by CPSC, and then there is 
a whole host of criteria on how hazardous materials are then 
handled in finished consumer products. There is a whole host of 
labeling requirements that would be on something like that. And 
the Agency could also ban the use of a product if they felt 
that the labeling would not protect the consumer.
    Mr. Latta. Mr. Goldberg, some people have been arguing that 
the United States needs a TSCA that mirrors REACH. Your 
company's a global company. So would you argue that having the 
same system would be in your interest?
    Mr. Goldberg. Since we deal with so many different regions, 
I think we realize that we have to live in and adapt to 
regional differences in the context of chemical management 
programs that fit the levels of both of protection, which 
hopefully from the BASF standpoint are consistent along all 
those regions, but also the individual regional differences 
that exist. And so while certainly from some degree we would 
all love, in the abstract world, harmonization that made it 
easier to live with. The fact of the matter is there are 
differences. And the schemes among these various regions can be 
very different. REACH is a very, very different scheme, even 
down to its basic nature, than TSCA is. And so while there are 
learnings--and as Mr. Jones said, there are some benefits that 
we can take moving from region to region, for example sharing 
of data, at the end of the day, we realize the need to adapt 
and be responsive to individual chemical management regimes.
    Mr. Latta. So you agree that it would be important for the 
U.S. to have a system that is unique just to the United States?
    Mr. Goldberg. Yes. I mean, in the context of the European 
system, for example, it is not a chemical management system the 
way we think of it here. It is really largely an--at least it 
started information gathering system that is registrant- or 
company-based, as opposed to a substance-based system that we 
have here. Changing that would require a rather dramatic 
overhaul. And as I have discussed with some of my colleagues, 
even in the environmental community, it is not a system I think 
that adapts itself well necessarily here.
    Mr. Latta. OK. So you think the lessons of REACH that the 
United States should avoid in TSCA would be this adapting well?
    Mr. Goldberg. Well, I think there are a number of lessons 
we have learned about REACH, including the bureaucracy that has 
revolved around it, the costs--ongoing costs involved, which 
have not necessarily established themselves with measured 
levels of protection, because to date it has been about 
information gathering and not about risk management. And the 
goals of modernizing TSCA, as I said as one of my principles, 
is to provide EPA with additional authority to adequately 
manage risks.
    Mr. Shimkus. Gentleman's time has well expired.
    Mr. Latta. Thank you very much, Mr. Chairman. My time has 
expired, and I yield back. Thank you for your indulgence.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. I thank the chairman. I also want to make 
sure the chairman understands that we appreciate your 
bipartisan effort. I don't think we are there yet, Mr. 
Chairman. But if we keep working together, we will get there.
    One of the things--I mean, there is a lot of reasons to 
want to change and improve TSCA. One of them I think is that 
there is a lack of confidence in the public in chemical safety 
in this country. And I think that is a problem that the 
companies, the businesses would want to address firmly. And it 
is one of my concerns with the Chemicals in Commerce Act is 
that it may actually go in the wrong direction, reducing 
public's confidence in our chemical safety in this country.
    Mr. Igrejas, would you respond to that?
    Mr. Igrejas. I think that is the concern. And it is why we 
counseled that we really focus in on the idea of safety--a 
definition of it, and the standards that the public health 
community, and not just the ones I represent but other folks, 
the American Public Health Association, the pediatricians, 
others all agree it is something that would protect people. 
Legal authority to then implement what is needed to protect 
people after review against that safety standard, and funding 
and direction for EPA to make progress in making those 
decisions. And that is what we still don't see in this bill 
because of the issues that have--that came up in Mr. Jones' 
testimony. And so we are concerned about that.
    And then there is also--there are areas where some of the 
tools that EPA uses right now to provide protection for people 
are rolled back. We have highlighted the new chemicals program. 
And these tools are not ones that we think do the jobs to 
protect people from new chemicals, but they are at least there. 
EPA has sort of stitched together the ability to order testing 
and impose restrictions at different times. But some of that is 
rolled back.
    And then you have the increase in secrecy on chemicals in 
the bill with the explicit requirement that identity is hidden, 
even when it is linked to a health and safety study. And so I 
think that those things--well, we need to beef up the first 
thing and pull back on the other things I mentioned where the 
existing program is pulled back.
    Mr. McNerney. Thank you. Mr. Moore--or, Senator Moore, the 
right to know laws are often used by States to protect their 
citizens. If this provision is stripped, how do you think it 
will affect the NCSL's work in ensuring public safety?
    Mr. Moore. We would have to look at the implications of the 
State involved. I guess we couldn't look at it on a State by 
State basis, because this would then preempt the States having 
a right to implement the Right to Know law. So it is not even 
an issue that you could go back to each State legislator or 
administrator and--how do we get around this? If this 
preemption applies to the Right to Know law, there is nothing 
that the States could actually do to protect the public safety 
employees or workers who are being exposed to these types of 
chemicals.
    Mr. McNerney. OK. Thank you. Mr. Sauers, my understanding 
is that Proctor & Gamble is working to reduce animal use in 
testings. Do you--how do you feel that fits in with chemicals 
and safety--Chemicals in Commerce Act?
    Mr. Sauers. Um-hum. Yes. Thank you, Congressman. Yes, we 
are very sensitive about the use of animals in safety testing. 
As a company, we invest about $350 million on the development 
of alternatives. We appreciate very much the provisions that 
are stated in here that promote the use of animal alternatives, 
using structure activity relationship and things like that. So 
it is well represented and appreciated.
    Mr. McNerney. OK. Thank you----
    Mr. Shimkus. Would the gentleman yield for a preemption 
question?
    Mr. McNerney. Sure.
    Mr. Shimkus. Because I think this--there is a lot of 
confusion. And so for Mr. Greenwood, how does--how do you think 
the preemption works? Does it, as we have heard, completely tie 
the hands or does it just preempt as the EPA acts on individual 
chemical--on an individual chemical?
    Mr. Greenwood. That has been my--the latter point is what 
I--my understanding. When EPA acts, then there is the 
indication of the preemption. But it has to be the action of 
the Agency, which then accomplishes----
    Mr. Shimkus. So if there is no action, there is no 
preemption?
    Mr. Greenwood. No. That is my understanding. That is how I 
have read the bill.
    Mr. Shimkus. OK. And thank you. Thank you, Mike. And----
    Mr. McNerney. I am going to yield back.
    Mr. Shimkus. The gentleman yields back. The Chair now 
recognizes the gentlelady from California, Ms. Capps, for 5 
minutes.
    Mrs. Capps. Thank you, Mr. Chairman. And I thank this panel 
here for being here today with us. And I particularly want to 
welcome a former colleague, Cal Dooley, with whom I was 
privileged to serve in the House of Representatives in 
representing a lovely district not very far from my own home. 
And it is a pleasure to have you be a part of this panel.
    As we heard from the first panel, the bill before us fails 
to require protection of vulnerable populations in managing 
identified risks of existing chemicals. This fundamental flaw, 
in my opinion, could put women, children, the elderly, the 
disabled, workers and residents of hotspot communities at 
serious risk. Any TSCA reform bill this committee considers 
should really ensure the protection of vulnerable populations.
    And I would like to begin by discussing the specifics of 
how we could ensure that protection. I have asked some 
questions of our EPA witness about specific requirements. I 
want to follow-up on that with you, Mr. Igrejas. Mr. Igrejas, 
do you think that a chemical that is dangerous to a vulnerable 
population should be able to pass the safety standard under a 
reformed TSCA?
    Mr. Igrejas. No.
    Mrs. Capps. Can you explain whether the current draft 
offers that protection?
    Mr. Igrejas. We think it doesn't provide the protection.
    Mrs. Capps. Does your coalition, Mr. Igrejas, believe that 
risk management decisions must ensure that significant risks to 
vulnerable populations are addressed?
    Mr. Igrejas. Yes, we do.
    Mrs. Capps. And does the current draft ensure that 
vulnerable populations are protected from the risks identified 
when evaluating existing chemicals?
    Mr. Igrejas. We believe that it does not. I could get into 
the details, but it does not.
    Mrs. Capps. Well, I will give you a chance to do that. Are 
there some specific changes that you would recommend that we 
need to include in such legislation as reforming TSCA to ensure 
strong protections for vulnerable populations?
    Mr. Igrejas. Well, one of the key ones is the--right now, 
the assessment does specify that they look at vulnerable 
populations, but against the standard that we still don't know 
exactly what it means in the bill. And I think we have 
identified that. It doesn't require that you aggregate the 
exposure to the vulnerable populations. And that is the key 
issue, because there might be multiple vulnerable populations 
for the same chemical. If you look at flame retardants, you 
have firefighters who now have a cancer prevention project that 
is about their disproportionate exposure to these chemicals 
when they go into fires. That is higher exposure for an adult. 
Then you might have children where there is the smaller amount 
of exposure could cause harm when the chemicals are used as 
directed in the home. And you want to make sure that the EPA is 
mapping the exposures--all the exposures that either of those 
groups has against them, and then devising the restrictions to 
make sure that they can only be used in a safe way and that the 
harm isn't occurring. And I think the absence of aggregate 
exposure in the assessment--and then the key thing that was 
talked about a lot in the discussion by Mr. Jones is if EPA 
ultimately can't impose the restrictions needed to ensure the 
safety, then a lot of that is academic. You don't want to have 
all this risk identified and then not be able to actually go 
ahead and impose the restrictions.
    Mrs. Capps. Um-hum.
    Mr. Igrejas. So for those reasons, we think that it does 
not. Even though vulnerable populations and a decent definition 
of it are in the bill, they are not actually protected by all 
the provisions.
    Mrs. Capps. So it looks like there is some technology or a 
capability of identifying the risks and of actually, at least 
better than we are now, mitigating them. Would that be your 
assessment? Is that----
    Mr. Igrejas. That definitely is. I think the--I cite the 
model of the pesticide program. And we can't import all the 
details of it here. But the basic idea of that you look at 
vulnerable populations. You add up the exposures. You impose 
the needed restrictions. That is the model that we have had in 
effect. There have been measurable public health improvements 
from it. So we know it can be done. It is just that is there 
the will to do it?
    Mrs. Capps. Right. But there is a pathway, or there is some 
precedent for doing this. Finally, could you speak to the 
public's opinion, because you work a lot with the public 
opinion on this topic as well? I would think that properly 
protecting children and seniors and the other vulnerable 
populations would--from the effects of dangerous chemicals 
should be fairly widespread, the enthusiasm for it might be a 
popular topic. What is your idea here?
    Mr. Igrejas. Yes. It is--the support for protecting 
pregnant women and children from toxic chemicals in the sense 
of that there is a concern about chemicals now that they could 
be having an effect on a lot of the chronic disease that we see 
in the country. It is widespread. And so you would be on solid 
ground in taking action to do all those things with public 
opinion. And I can provide the details on that.
    Mrs. Capps. I appreciate that. So in order to effectively 
reform TSCA, the bill before us needs significant revisions 
regarding the protection of vulnerable populations. And there 
is a will in the country to do--or there is a desire to do 
this. So I urge my colleagues and the stakeholders on this 
panel to refuse to support any--at least that is my opinion--
that we shouldn't support any TSCA reform bill that creates the 
illusion of progress while still leaving these vulnerable 
populations unprotected.
    Thank you, Mr. Chairman. And I yield back my time.
    Mr. Shimkus. The gentlelady yields back her time. We want 
to--seeing no other members, I have a unanimous consent request 
to place some letters into the record, a letter from 3M 
Corporation, a letter from 13 attorneys general, the American 
Association for Justice, Texas Campaign for the Environment, 
Moms Clean Air Force, National Hispanic Medical Association and 
National Medical Association, the American Public Health 
Association, a number of healthcare organizations, a letter 
from 72 health professional, public health and environment and 
public interest groups. And that is it. Not this letter. OK.
    Mr. Voice. Oh, yes. Sorry.
    Mr. Shimkus. Yes. I am sorry. See, I was right. Staff was 
wrong. We will note that down for the first time. And also a 
letter I received from Ranking Member Waxman and Ranking Member 
Tonko on this legislation and hydraulic fracturing.
    Without objection, so ordered.
    [The information is available at http://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=102160.]
    We want to thank you. This is a tough issue. You guys are 
all the experts. We do want to continue open discussions and 
comments, language, anything. You can come in and see me. An 
important piece of legislation, and we learned a lot today, and 
we appreciate your participation.
    With that, I will adjourn the hearing.
    [Whereupon, at 1:12 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
